    U.S. Department of Education

Office of Inspector General




    Semiannual Report
       to Congress
                No. 35

    April 1, 1997 – September 30, 1997
                                                                     October 31, 1997


Honorable Richard W. Riley
Secretary of Education
Washington, DC 20202

Dear Mr. Secretary:

I am pleased to submit this Semiannual Report on the activities of the Department's Office of Inspector General (OIG) for
the six-month period ending September 30, 1997. Submission of this report is in accordance with section 5 of the Inspector
General Act of 1978 (Public Law 95-452, as amended). The Act requires that you transmit this report, along with any
comments you may wish to make, to the appropriate Congressional committees and subcommittees.

This period, the OIG continued to work with ED managers and Congress to ensure that legislative proposals for
reauthorization of ED programs contain provisions that will increase both the accoun-tability of program participants and
the programs’ responsiveness to the identified needs of their customers: the nation’s students and taxpayers. From
developing a detailed compendium of pro-posals for reauthorization of the Higher Education Act based on our audit and
investigative experi-ence, and discussing them in a collaborative effort with Departmental and congressional officials; to
issuing audit reports on key issues in Rehabilitation Act and Elementary and Secondary Education Act programs; to
testifying on critical concerns in postsecondary, elementary and secondary educa-tion— in each of these areas, the OIG has
been in the forefront of efforts to ensure the integrity and responsiveness of Education Department programs.

I look forward to working with you and Department managers in the days ahead, as we pursue our unceasing efforts to
achieve educational excellence and equality of educational opportunity for the nation's learners, and the highest levels of
program efficiency, effectiveness and integrity for the nation's learners and taxpayers.

                                              Sincerely,



                                              Thomas R. Bloom
                                                                             CONTENTS


0 Letter to the Secretary

0 Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

0 P.L. 95-452 Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

0 ABSTRACT 1:                         Significant Audits and Audit-related Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

0 ABSTRACT 2:                         Significant Prosecutive Actions Resulting
                                           from OIG Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

0 ABSTRACT 3:                         Congressional Testimony . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

0 ABSTRACT 4:                         Action Memoranda . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

0 ABSTRACT 5:                         Legislative Proposals for Reauthorization of the
                                           Higher Education Act . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

0 Statistical Tables
    0         Recommendations Described in Previous Semiannual Reports on Which
                    Corrective Action Has Not Been Completed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39
    0         ED/OIG Reports on Education Department Programs and Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41
    0         Inspector General Issued Reports with Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43
    0         Inspector General Issued Reports with Recommendations for
                      Better Use of Funds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44
    0         Unresolved Reports Issued Prior to April 1, 1997 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45
    0         Statistical Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47


0 Glossary of Abbreviations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49
                                                 EXECUTIVE SUMMARY
                                     Significant Activities and Accomplishments


This period, the Office of Inspector General (OIG) continued its ongoing efforts to assist Depart-ment of Education (ED) managers and
officials in assuring that taxpayer-funded federal education programs and operations are implemented with efficiency, effectiveness,
integrity, and accounta-bility. Highlights of our efforts follow.




                                                        Reauthorization


The OIG has worked to ensure that proposals for reauthorization of significant ED program legis-lation contain provisions that will
increase the accountability of ED fund recipients and address key issue areas that have been identified in the course of OIG audit and
review efforts. The OIG has committed about 70% of its audit and investigative resources to reviewing and commenting on student
financial assistance (SFA) programs because these programs, historically, have been a repository of significant problems. Highlights
of our efforts follow.

Higher Education Act of 1998 (HEA)
During this semiannual reporting period, the OIG devoted significant resources to provide input for the 1998 reauthorization of the
Higher Education Act (HEA). To assist Congress in its task of reauthorizing HEA, the OIG prepared proposals for amendments to
the HEA that we believe can greatly improve the integrity of the SFA programs and save taxpayers and students substantial amounts
of money.

Proposals sent to Congress
We compiled our proposals into a report sent to members of              0    Institutional eligibility and enforcement
Congress in July. In a colla-borative effort, we discussed our          0    Student eligibility
proposals with Department officials and met with staff-ers of the
various educational committees to discuss our proposals in              0    Loan programs
detail, and to answer any relevant questions.                           0    Law enforcement
These proposals, based on OIG audits, inves-tigations, and other        Each proposal set forth our position, the cur-rent law, the
data about fraud, waste and abuse in the SFA programs, were             recommended change to the law and our rationale for the
organ-ized into four major areas:                                       proposed change. (Details surrounding the four major areas are
                                                                        provided in Abstract 5, “Legislative Proposals for
                                                                        Reauthorization of the Higher Education Act.”)




                                                                    1
Rehabilitation Act
This period, the OIG issued reports designed to assist the Department and Congress in the re-authorization of the
Rehabilitation Act. Our reports addressed such issues as the adequacy of the program allocation formula and the need for
performance measures to evaluate administrative and program success more effectively.
Upon learning that Congress intended to reauthorize the Rehabilitation Act for only three years, without making significant
changes to the Act, the OIG recommended that Congress insert a data research provision in the proposed legislation.
Specifically, we proposed that Congress require research by the Secretary concerning a new Vocational Rehabilitation (VR)
program funding- allocation formula, and that this research be completed prior to the next authorization period.
To further assist Congress in its subsequent authorization of the Rehabilitation Act, we plan to issue a report that will
provide a synopsis of OIG’s work on the Department’s VR program.

Elementary and Secondary Education Act
The OIG issued two audit reports covering Elementary and Secondary Education Act (ESEA) pro-grams this period. One
report addressed how Department officials ensure that Title VII Bilingual Education Program objectives are being met. This
report also examined if grant-recipient schools are teaching limited-English proficient students in English as well as in their
native language(s).
The second ESEA report examined the Department’s effectiveness in increasing state education agency (SEA) and local
education agency (LEA) awareness and understanding of the new Title XIV flexibility provisions. This report also reviewed
the SEAs’role in ensuring better distribution of information and technical assistance concerning the flexibility provisions.

Bilingual Education
Our audit of the Bilingual Education Program identified a          a “midterm” assessment of four major, cross-cutting
need for additional monitoring by the Department’s Office          flexibility provisions in Title XIV: waivers, consolidated
of Bilingual Educa-tion and Minority Languages Affairs.            plans, con-solidation of administrative funds, and the use
Without appropriate monitoring, program officials are              of unneeded funds. We found that some SEAs did not
unable to ensure that bilingual program objec-tives are            always encourage local education ag-encies (LEAs) to
being met, that grant dollars are be-ing used appropriately        implement Title XIV provi-sions or provide guidance on
or that the grants are fulfilling the Department’s capacity-       how to do this.
building policy to ensure that schools can continue to offer
                                                                   The audit also suggested that some LEAs did not always
bilingual education after federal assis-tance is reduced or
                                                                   know about or have sufficient gui-dance to implement the
eliminated.
                                                                   provisions. Although the Department had issued extensive
The Department generally agreed with our                           guidance on waivers and SEA consolidated plans and
recommendation to develop and implement a monitoring               applications, it had not issued specific gui-
program and has taken steps to implement such a program.           dance on the consolidation of administrative
                                                                   funds or use of unneeded funds. The Department advised
Our audit further concluded that teachers in grant-recipient
                                                                   us that it would issue such gui-dance, which was issued in
schools consistently used Eng-lish in the bilingual classes
                                                                   September 1997.
as required by the grants. Consequently, we determined
that student native languages were not being used
excessively and that controls over language usage appear
adequate.

Title XIV flexibility provisions
In another audit, the OIG provided the De-partment with


                                                               2
                                             Congressional Testimony


Student financial assistance information systems modernization
At the request of the House Subcommittee on Postsecondary Education, Training, and Life-Long Learning, Committee on
Education and the Workforce, the Inspector General (IG) testified about student financial assistance information-systems
modernization. The IG stated that the Depart-ment faces significant challenges in meeting the mandates of the Clinger-
Cohen Act and in mod-ernizing its SFA program systems. In his testimony, the IG discussed four principal issues that are
integral to the success of the Department’s systems modernization effort which need to be address-ed to correct the
weaknesses that have resulted in the current ineffective systems. (See Abstract 3, “Congressional Testimony.”)

Loan Consolidation Process, Federal Direct Student Loan Program
The IG testified before the House Subcommittee on Postsecondary Education, Training, and Life-Long Learning,
Committee on Education and the Workforce, about the Federal Direct Student Loan Program loan consolidation process.
The IG’s testimony focused on the circumstances sur-rounding the suspension of student loan consolidations and the urgent
need in the SFA programs for the Department to appoint a Chief Operating Officer who possesses experience in managing
large computer-based financial services operations. The IG also stressed the Department’s need to hire qualified technical
staff to write well-designed systems contracts and rigorously monitor those contracts. (See Abstract 3, “Congressional
Testimony.”)

Dwight D. Eisenhower Mathematics and Science Education Program
The Deputy Assistant Inspector General for Audit (DAIGA) testified before the House Subcommit-tee on Oversight and
Investigations, Committee on Education and the Workforce, on the Depart-ment of Education’s Eisenhower Mathematics
and Science Program. The DAIGA’s testimony fo-cused on the OIG’s May 1992 management improvement report titled
Improvements Needed to As-sure the Dwight D. Eisenhower Mathematics and Science Education Program Meets the
Objectives of National Education Goal 4 and the Eisenhower Act. The DAIGA testified that during our audit work, we
found that the program was implemented generally in accordance with the applicable regulations. How-ever, the
Department needed to improve its application review and approval process, its monitoring of state agency programs, and
its performance reports and assessment of program results. (See Abstract 3, “Congressional Testimony.”)




                                                            3
                                              Postsecondary Education


Direct School Loan Audit
This period we completed seven additional Direct Loan Program school reviews as part of our Na-ional Direct Loan
Schools Audit. We issued a draft audit report summarizing the results of 16 school audits. We received the Department’s
response to our draft in late September and antici-pate issuing this summary report in the next reporting period.

Other SFA Entity Audits
Our audits found significant problems that needed improvements relating to:
1)   identification of estimated Pell Grant overpayments totaling $2.6 million at St. Louis Uni-versity based on the financial
     aid administrators’use of professional judgment to reduce fam-ily income information;
2)   financial aid administrators’use of professional judgment to reduce family income by certain expenses not included
     in the statutory needs analysis formula resulting in $775,000 of exces-sive Pell awards at 19 schools we visited; and
3)   a finding that the integrity of the Pell Grant Program can be enhanced by eliminating advance funding.
(See Abstract 1, “Significant Audits and Audit-Related Activities.”)

Investigative Efforts
We have been actively focusing our investigative efforts in the development of large-scale proactive investigative projects.
These projects are designed to address unique and egregious fraudulent activity against the Department's student aid
programs. At this time, we have two proactive inves-tigative projects ongoing. These projects are looking into Pell Grant
fraud involving scholarship athletes at various Division I NCAA schools and student loan fraud involving individuals
attending foreign-based schools, with particular emphasis being placed on foreign medical schools. The projects are
described below.

Federal student aid college athletes                              initiated a review of Title IV dis-bursement practices at
project                                                           three colleges and uni-versities. A number of other
                                                                  schools are slat-ed to be reviewed in the near future.
The OIG has begun a national project to re-view the use of
                                                                  School officials and/or student athletes who are found to
Title IV funds within NCAA- sanctioned college athletic
                                                                  have received Title IV funds illegally will be recommended
programs. This project was developed after a successful
                                                                  to the appropriate United States attorney’s office for
con-clusion of the OIG investigation at the Uni-versity of
                                                                  prosecution action similar to the University of Miami case.
Miami (Florida) where approxi-mately 80 student athletes,
assisted by an employee of the university student athlete
                                                                  Foreign schools project
department, fraudulently received Pell Grants totaling
approximately $220,000.                                           Over the last several years, the OIG has been investigating
                                                                  and successfully prosecuting in-dividuals who defrauded
Information obtained from this investigation, similar OIG
                                                                  the Federal Family Education Loan Program by falsely
cases, the U.S. General Account-ing Office, and other
                                                                  claiming to have attended foreign medical schools. As a
sources indicated that there may be widespread problems
                                                                  result of our investigative efforts, we identified program
of Title IV funds going to ineligible student athletes. In
                                                                  areas having a systemic deficiency with respect to the
response to this potentially serious problem, the OIG

                                                              4
determination of borrower eligibility. For example, our             As an illustration of our continuing efforts, we are
investigative ef-forts have identified instances in which           reporting in this Semiannual Report the ar-rest and
indi-viduals have received disbursements without having             indictment of Rollie Romero-Eaton on 34 felony counts of
submitted a Free Application for Fed-eral Student Aid               bank, wire and mail fraud worth almost $130,000 involving
(FAFSA)               to         E D ’s        Central              his falsely claimed enrollment at the University of Kent in
Processing System (CPS). The CPS deter-mines an official            Canterbury, England (page 25). We are also reporting the
Expected Family Contribu-tion (EFC) and performs                    indictment of Michael E. McSheehy in Rochester, New
matches against vari-ous databases. Edits developed as a            York, on three counts of student financial assistance fraud
result must be resolved before the disbursement of Title IV         relating to his attendance at Ross Uni-versity School of
aid can be authorized.                                              Medicine in Dominica, West Indies (page 26).




                                               Departmental Operations



Financial Statement Audit
Pursuant to the requirements of the Chief Financial Officers Act of 1990 and the Government Management Reform Act
of 1994, the Department prepared consolidated financial statements to present its financial position and results of operations
as of September 30, 1995 and 1996. The Department finalized its 1996 consolidated financial statements in July 1997 and
the auditors issued their reports the following month.

Auditors unable to express opinion                    accountant’s report did not affect the fiscal year
The report of the independent public ac-              1996 opinion.        These issues relate to
countants, Price Waterhouse, LLP, indicated           receivables for defaulted guaranteed loans, the
that they were not able to express an opinion on      reserve funds maintained by guarantee agencies,
the fiscal year 1996 consolidated financial           and fund balances with the U.S. Treasury.
statements because the Department’s docu-             These are reflected in the fiscal year 1996
mentation of the basis for certain estimates did      internal control report.
not provide the auditors sufficient evi-dence to      The fiscal year 1996 report on internal con-trols
conclude whether the amounts were materially          disclosed material weaknesses and re-portable
over- or understated. The estimates affected          conditions in the internal control structure and
were the liabilities for loan guarantees under the    its operation. The material weaknesses relate
Federal Family Education Loan (FFEL)                  to the following issue areas:
Program, the allowance for uncollecti-ble
                                                      1       Subsidy estimates for the Department’s
defaulted guaranteed loans, the allowance for
                                                              loan programs
direct loan subsidy costs, and the related
                                                      1       FFEL Program — guaranty agency over-
guaranteed and direct loan subsidy expenses.
                                                              sight
These estimates were also an issue for fiscal
year 1995.                                            The re portable conditions relate to the fol-
                                                      lowing areas:
As a result of special efforts, three additional
opinion issues identified in the fiscal year 1995


                                                                5
1    Fund balances with Treasury
1    Student financial assistance programs
1    Controls over automated systems
The report on compliance with laws and reg-
ulations disclosed no instances of noncompli-
ance that are required to be reported under
Government Auditing Standards (see Abstract
1, “Significant Audits and Audit-Related
Activi-ties”).

Government Performance and Results Act
During this reporting period, the OIG provided input on the development of the Department’s Strategic Plan. The OIG
suggested that the Department require program managers to assert to the reliability of the data sources to be used for
determining progress toward meeting the performance measures. The OIG is beginning an audit to assess the Department’s
system for implementing the Results Act and for the collection and reporting of performance data. This is the first in a series
of audits planned to address the collection and reporting of performance data.

Quick Reaction Reports to Management
It is OIG policy to provide timely information for use by decision makers. Accordingly, we are issu-ing alternative products
such as action memoranda, management alerts, position papers, testimony, etc. and providing alternative services such as
management reviews, inspections, and consulting/ advisory services. Some examples are:

Action memoranda                                      . (See Abstract 4, “Action Memoranda,” for a
                                                      listing of action memoranda issued this period.)
During this period, we issued 18 action memo-
randa to management, the majority in the              Management reviews
postsecondary (12) and systems (5) areas. An
additional product dealt with a proposal for          During the reporting period, we completed two
                                                      management reviews. In our Telecommu-nication
Vocational Rehabilitation.
                                                      Resources Review, we noted that the Department
Some of our more important products in the            had implemented corrections pre-viously agreed to.
postsecondary area focused on the following           These included the follow-ing:
areas needing management’s attention: direct
loan programs, program reviews, processing of
audit reports and resolving audit findings, and       1     Principal offices now receive monthly credit-
the recertification process. The focus of our               card billings to ensure that users and
                                                            supervisors monitor charges.
products in the ADP systems area was direct
loan servicing contracts and the status of the        1     Employees are periodically reminded that
Department’s independent computer systems                   personal telephone calls are prohi-bited except
security reviews                                            those the agency deems are

     necessary in the interest of the Government.           approximately $432,000 per year.
1    The Department has identified and dis-
     connected about l,200 unused telephone lines
     which had been costing the Depart-ment


                                                              6
                                               Audit Quality Initiatives


Cooperative Audit Resolution and Oversight Initiative
As reported in previous Semiannual Reports, we have been working with an intra-departmental team on a wide-ranging
project known as the Cooperative Audit Resolution and Oversight Initiative, or CAROI. Other offices participating in the
CAROI initiative include the Office of Elementary and Secondary Education, the Office of Vocational and Adult Education,
the Office of Special Educa-tion and Rehabilitative Services, the Office of the General Counsel, and the Office of the Chief
Financial and Chief Information Officer.


CAROI Team Accomplishments                              The CAROI team also was involved in the De-
                                                        partment’s Data Coordination Group. This group
The CAROI team and ED program officers
                                                        is considering more efficient and effective
produced a question-and-answer document for
                                                        approaches to data collection, coordination and
national distribution that addresses the new
                                                        usage.
flexibility provisions under the Elementary and
Secondary Education Act (ESEA). This gui-               For additional information on the CAROI team’s
dance will assist grantees of programs under the        activities and accomplishments, see Abstract 1,
ESEA in using the flexibility provisions in Title       “Significant     Audits    and     Audit-Related
XIV.                                                    Activities.”


Audit Guidance and Quality of Nonfederal Audits
This period, we issued two audit guides on attestation engagements applicable to student financial assistance programs, and
continued an audit quality project for work performed for proprietary schools by independent public accountants (IPAs).
These guides are described below.

Audit Guide, Compliance Audits (Attesta-tion                       Federal Family Education Loan Program             at
Engagements) of the Federal Student Financial                      Participating Guaranty Agencies and Their Servicers
Assistance Programs at Partici-pating Institutions
                                                                   Issued in August 1997, this guide is to be used by the
This publication, issued in July 1997, updates the June            practitioner to perform agreed-upon procedures relating
1995 SFA audit guide, which IPAs must use when                     to management's assertion about compliance performance
performing compliance audits at any institution or                 percentage as regards collection activities on defaulted
institution servicer parti-cipating in or administering any        loans, timely claim payments, and timely reinsurance
aspect of Title IV HEA programs (except for public                 filings.
colleges, state and local universities, and nonprofit in-
stitutions that obtain an audit in accordance with Office of
Management and Budget Circu-lar A-133).

Agreed-Upon   Procedures    Guide   (Attestation
Engagement) Exceptional Performance Status for


                                                               7
Audit Quality Project
This fiscal year, we initiated an audit-quality project that focuses on work performed by IPAs on audits of student financial
assistance programs.
For this project, we are performing quality control reviews (QCRs) of 74 audits performed by 36 IPAs who audit a
significant number (10 or more) of proprietary schools in a given year. The 36 IPA firms performed 1,145 of the 4,698
(24%) SFA audits submitted for fiscal year 1995. To date, we have completed 49 of these QCRs and have finished the field
work for the other 25. Of the 49 QCRs completed, 25 were substandard and 7 had significant inadequacies.
The chart below depicts the results for the 49 completed QCRs.




Substandard performance requires major changes or the correction of major deficiencies in the audit work. We plan to
evaluate the correctve action taken on the substandard audits and take appropriate action. In addition, we expect to make
referrals to the State Boards of Accountancy and to the American Institute of Certified Public Accountants for possible
disciplinary action for those we conclude have significant inadequacies.




                                                             8
                                           P.L. 95-452 REPORTING REQUIREMENTS


SECTIONS 5(a)(1) and 5(a)(2)                Significant Problems, Abuses and Deficiencies
0 Significant Audits and Audit-related Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
0 Significant Prosecutive Actions Resulting from OIG Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

SECTION 5(a)(3) Recommendations Described in Previous Semiannual Reports
                 on Which Corrective Action Has Not Been Completed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

SECTION 5(a)(4) Matters Referred to Prosecutive Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48

SECTIONS 5(a)(5) and 6(b)(2)                Summary of Instances Where Information Was
                                             Refused or Not Provided*

SECTION 5(a)(6) Listing of Audit Reports
0 ED/OIG Reports on Education Department Programs and Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

SECTION 5(a)(7) Summary of Significant Audits
0 Significant Audits and Audit-related Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

SECTION 5(a)(8) Audit Reports Containing Questioned Costs
0 Inspector General Issued Reports with Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43

Section 5(a)(9)          Audit Reports Containing Recommendations That
                          Funds Be Put to Better Use
0 Inspector General Issued Reports with Recommendations for Better Use of Funds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44

SECTION 5(a)(10) Summary of Unresolved Audit Reports Issued Prior to the
                  Beginning of the Reporting Period
0 Unresolved Reports Issued Prior to April 1, 1997 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47

SECTION 5(a)(11) Significant Revised Management Decisions*

SECTION 5(a)(12) Significant Management Decisions with Which OIG Disagreed*


                                                                                                                               *We have no instances to report.




                                                                                    9
                                                              Abstract 1

                                            SIGNIFICANT AUDITS AND
                                           AUDIT-RELATED ACTIVITIES
                                                  April 1 – September 30, 1997




                              NOTE: The amounts reported by auditors for the reports described below
                            are subject to further review and final determination by Department officials.


                                   ’ Student Financial Assistance Programs ’

                               Education Loan Services, Inc. Failed to Calculate Interest Rebates
                                       Owed to the Secretary Estimated at $1,014,000
                                                    ACN 01-58052   September 30, 1997

This audit was conducted upon the receipt of information that Education Loan Services, Inc. (ELSI), a major loan servicer in the
Northeast, was going out of business. Our audit disclosed that lenders serviced by ELSI understated interest rebates owed to the
Secretary, and that ELSI failed to determine numerous interest rebates owed to the Secretary, for the quarter ended March 31, 1995,
by an estimated $1,014,000.
The Higher Education Amendments of 1992 required variable interest rates on all Stafford loans disbursed to new borrowers on or after
October 1, 1992; and rebates of excess interest (the difference between the variable rate and applicable fixed-rate) on any new loans
disbursed to existing borrowers. Numerous lenders, including those serviced by ELSI, failed to comply with this law. Accordingly,
the Technical Amendments of 1993 allowed lenders to convert loans previously requiring rebates to a variable rate of interest, and
determine an interest rate adjustment (rebate) for all quarters for which a rebate was required under prior law. Rebates were to be made
by crediting the borrower’s account or, for periods during which the Secretary paid interest, by adjustment to the ED Form 799 due
no later than the quarter ending March 31, 1995. In its attempt to comply with the latter amendments, ELSI excluded numerous loans
requiring variable rate conversion and rebates, resulting in the understatements.
We recommended that the Secretary notify all lenders serviced by ELSI of the erroneous exclusion of loans requiring variable rate
conversion and rebates. Those lenders should be required to identify all excluded loans and provide evidence that the rebates were paid,
or otherwise pay the required rebates to ED, by an adjustment to their next ED Form 799, or the borrower, by an adjustment to the
principal balance of the borrower’s account.

                                                             Q     Q     Q




                                                                   10
                                                                            SIGNIFICANT AUDITS AND AUDIT-RELATED ACTIVITIES



                                      University of Massachusetts – Amherst Needs to Improve its
                                         Administration of the Federal Direct Loan Program
                                                       ACN 01-70002     September 30, 1997

Our report cites deficiencies in the University of Massachusetts's (U-Mass) administration of the Direct Loan Program. We found that
U-Mass needs to:

1)      report all loan information to the servicer;
2)      correct and timely report disbursement dates;
3)      correctly report adjustment and cancellation information and student status changes;
4)      conduct monthly reconciliations;
5)      strengthen computer controls; and
6)      develop written policies and procedures for testing of new and enhanced application programs.
U-Mass generally agreed with most of the findings.

                                                              Q         Q        Q

                                  Audit of the William D. Ford Direct Loan Program Administered by
                                                      Keiser College of Technology
                                                         ACN 04-70002       May 30, 1997

Our audit identified some weaknesses related to the reporting of loan disbursement information to the Loan Origination Center (LOC)
in award year 1995-96. We recommended that the Office of Postsecondary Education (OPE) instruct the institution to:

1)      work with the 3rd-party servicer to ensure that all backlogged disbursement data for the 1995-96 award year has been reported
        to the LOC;

2)      monitor the 3rd-party servicer transmission of any remaining loan disbursement data for award year 1995-96 to ensure that
        it is reported timely to the LOC; and

3)      regularly monitor the disbursement dates on loan origination records to ensure that they reflect the actual disbursement dates
        recorded on the student ledger cards.

                                                              Q         Q        Q

                                        Consumer Electronics Training Center, Chicago, Illinois
                                  Audit of the Administration of Student Financial Assistance Programs
                                                         ACN 05-60010       April 24, 1997

We found that Consumer Electronics Training Center (CETC) did not meet the standards of administrative capability contained in 34
CFR 668.16 because it violated many of the applicable regulations. Our audit identified several significant administrative deficiencies,
which led us to conclude that CETC was unable to demonstrate that it could adequately administer the programs. The deficiencies
involved:
1)      failing to report Pell disbursements and changes in disbursement amounts;
2)      disbursing student financial assistance (SFA) funds improperly;
3)      failing to pay refunds;
4)      failing to pay its 25 percent share of federal supplemental educational opportunity grants; and
5)      recording accounting transactions incorrectly.

                                                                      11
           SIGNIFICANT AUDITS AND AUDIT-RELATED ACTIVITIES




We recommended that the Office of Postsecondary Education (OPE) terminate CETC's eligibility to participate in the SFA programs,
and instruct CETC to return $186,720 of Higher Education Act program funds and submit documentation to correct the 1994/95
Student Payment Summary.

                                                              Q     Q       Q

                                              Academy of Court Reporting, Cleveland, Ohio
                              Audit of the Administration of the William D. Ford Federal Direct Loan Program
                                                         ACN 05-70005   July 1, 1997

Our review identified weaknesses related to:
1)      student status changes;
2)      database accuracy;
3)      administrative and fiscal procedures; and
4)      database security.
These weaknesses could adversely affect the Academy’s administration of the Direct Loan Program. We advised OPE to instruct the
Academy to:
1)      establish and implement notification procedures to ensure that it reports student status changes to the Direct Loan Servicer
        accurately and timely;
2)      establish and implement adequate internal controls over the Direct Loan Program to ensure database accuracy;
3)      strengthen administrative controls and fiscal procedures to ensure that it administers the Direct Loan Program in compliance
        with all program requirements; and
4)      develop, distribute and implement written computer security policies and procedures.

                                                              Q     Q       Q

                                           Interstate Business College, Fargo, North Dakota,
                               Audit of Administration of the William D. Ford Federal Direct Loan Program
                                                         ACN 05-70006   July 24, 1997


Our review identified weaknesses related to:
1)      reporting student status changes and disbursement amounts and dates;
2)      data base accuracy;
3)      administrative requirements; and
4)      data base security.
These weaknesses could adversely affect the college’s administration of the Direct Loan program. We recom-mended that OPE instruct
the college to:
1)      establish and implement notification procedures to ensure that it reports student status changes and disbursement amounts and
        dates to the Direct Loan Servicer, and maintains records that support submission changes and loan information;
2)      establish and implement adequate internal controls over the Direct Loan Program to ensure data base accuracy, correct existing
        errors in the data base, and transmit the corrections to the Direct Loan Servicer;



                                                                   12
                                                                          SIGNIFICANT AUDITS AND AUDIT-RELATED ACTIVITIES


3)      strengthen administrative controls and fiscal procedures to ensure that it administers the Direct Loan Program in compliance
        with all program requirements; and
4)      develop, distribute, and implement written computer security policies and procedures.

                                                            Q        Q        Q

                                      Financial Aid Administrators' Use of Professional Judgment
                                                       ACN 06-60004       July 31, 1997

Our review disclosed that some financial aid administrators (FAAs) have abused the use of professional judgment by allowing students
or whole classes of students to reduce family incomes by certain expenses not included in the statutory needs analysis formula. We
estimate that unreasonable and inadequately documented professional judgment actions at the 19 schools visited resulted in 804 students
receiving about $775,000 in additional Pell grants for award years 1994-95 and 1995-96.
Our review disclosed that FAAs:
1)      deducted expenses from family income that were nonessential and benefited whole classes of students, and
2)      made allowances for living and other expenses even though those allowances had already been considered in the needs analysis
        system.

We also found that FAAs did not always adequately document their actions.

In our opinion, the lack of specific provisions in the Higher Education Act of 1965 and the inability of the Department to regulate
professional judgment may have contributed to FAAs' allowing nonessential expenses.

We recommended that the Department seek changes in the HEA to:
1)      prohibit FAAs from including nonessential expenses when adjusting data elements used in the Expected Family Contribution
        calculation, and
2)      grant the Secretary the authority to regulate the professional judgment provisions.

We also recommended that the Department clarify professional judgment guidance provided to schools and identify schools that use
professional judgment frequently, classify them as high risk, and use this information in its risk analysis when scheduling schools for
monitoring.

                                                            Q        Q        Q

                                           Eliminating Advance Funding Would Enhance the
                                              Integrity of the Federal Pell Grant Program
                                                      ACN 06-60006       August 28, 1997

The Department is required to advance requested Pell Grant funds to schools before students begin classes. We found that this process
has resulted in accounting and reconciliation difficulties and placed Pell Grant funds at risk. The process requires numerous
adjustments (our review identified over 900,000 totaling $840 million for award year 1994/1995) and lacks a mechanism to ensure that
all necessary adjustments are made. As a result, the Department’s records are inaccurate and the Pell Grant program is more
susceptible to fraud, waste and abuse.
We recommended that the Department petition Congress to eliminate the advance funding provision of the Higher Education Act and
redefine an eligible student as one who has actually started classes. If the changes in the Act are made, the Department should provide
funds to schools for each payment period only after stu-dents start classes.

                                                            Q        Q        Q




                                                                     13
             SIGNIFICANT AUDITS AND AUDIT-RELATED ACTIVITIES


                                             Professional Judgment at St. Louis University
                                                        ACN 06-70003       July 30, 1997

Our audit found that St. Louis University’s use of professional judgment resulted in a de facto substitution of the statutory needs
analysis formula with the university’s own formula. According to the university’s financial aid administrator, the university’s practice
was to reduce family income by excessive living and other expenses without determining if the expenses were necessary and constituted
a special circumstance. We found that the university used professional judgment for 2,220 (46 percent) of its 4,862 Pell Grant
recipients during award years 1994-95 and 1995-96. Based on our sample of 139 professional judgment actions, we estimate that 2,016
students received Pell Grant overpayments totaling $2,599,709.

We recommended that the Department require the university to:
1)      establish procedures that would provide for the use of professional judgment only after:
        a)       determining on an individual student basis that special circumstances exist, and that the expenses were not already
                 included in the statutory needs analysis formula; and

        b)       documenting on an annual basis the reason for each professional judgment action; and
2)      refund $2,599,709 in Pell Grant funds disbursed as a result of the unreasonable professional judgment actions.

                                                              Q       Q        Q

                                           Technical Trades Institute, Colorado Springs, CO
                                                     Direct Loan Program Audit
                                                       ACN 07-70003       August 29, 1997

Our review identified weaknesses in three areas as follows:
1)      School officials had not established adequate security measures over computer software and equipment. Management controls
        over access to the Direct Loan software and data were not adequate, and appro-priate separation of duties had not been
        formally established. Records were not appropriately safe-guarded due to weaknesses in data back-up procedures and physical
        security of computer equipment.
2)      Discrepancies existed between disbursement amounts and dates recorded on student accounts and in loan records.
3)      School staff did not always follow program guidelines. They made disbursements to ineligible students, without valid
        promissory notes. Disbursements were not always made or reported timely. Refund allocation policies were not followed, and
        transaction dates for adjustments were incorrect.
To correct these weaknesses, we recommended that the Office of Postsecondary Education instruct the school to:
1)      activate password-protection features in the Direct Loan software, require periodic password changes, formally establish and
        monitor separation of duties for Direct Loan processing, arrange for appropriate storage of Direct Loan back-up data, and
        relocate network computer equipment;
2)      review student accounts and loan records to identify discrepancies and take corrective actions, establish a policy to ensure
        consistent dates are used, and establish a procedure to periodically reconcile internal records with electronic loan records;
3)      develop, distribute and follow policies and procedures for Direct Loan Program administration, establish effective management
        controls to ensure disbursements are only made to eligible students, after receipt of a signed promissory note;

4)      ensure that disbursements are made and reported timely;
5)      follow refund allocation policies; and
6)      use effective dates to record adjustments.


                                                                      14
                                                                            SIGNIFICANT AUDITS AND AUDIT-RELATED ACTIVITIES


We also identified a weakness in the regulations for returning cash generated by downward adjustments or can-cellations of Direct Loan
disbursements. We issued an action memorandum to the Assistant Secretary for Postsecondary Education requesting that he clarify
the timeliness requirement for the return of these funds. The Assistant Secretary’s response stated that these funds were defined as “idle
cash” and that schools would be advised that these funds must be disbursed or returned within seven days.

                                                             Q         Q        Q


                                       Audit of the Direct Loan Program Administered by
                                     University of California, Riverside, Riverside, California
                                                        ACN 09-60007       April 25, 1997

The report disclosed that the university:
1)      improperly changed disbursement dates on PLUS loan records transmitted to the Direct Loan Servicer;
2)      had records that contained discrepancies in disbursement dates;
3)      lacked adequate data-processing controls over access and changes to production software;
4)      did not reconcile school records with the Direct Loan Servicer’s records on a timely basis; and
5)      failed to notify the bank that its account contained federal funds.

We recommended that OPE take steps it deems necessary to ensure that the university has fully implemented appropriate corrective
action to address the above findings.

                                                             Q         Q        Q


                            Audit of the Direct Loan Program Administered by the University of
                         Advancing Computer Technology (formerly CAD Institute), Phoenix, Arizona
                                                       ACN 09-70007        August 26, 1997

Our review disclosed several administrative deficiencies. We found that the university had not taken the necessary steps to ensure that
all loan disbursements were properly recorded in the Direct Loan databases. Comparison of school records to the EDExpress cash
database identified about $430,000 of loan disbursements that were shown in school records but not recorded in the database.
Comparison of school records to the Education Department Financial Accounting and Reconciliation System (EDFARS) identified
about $970,000 of disbursements that were shown in the school records but not recorded in EDFARS. According to university officials,
the unrecorded disbursements occurred during its conversion from the DOS to the Windows version of the Department’s EDExpress
software. During our fieldwork, the university initiated actions to identify the unrecorded disbursements.
We also found that the university did not always transmit loan information timely, and that school records contained inconsistent
transaction dates; received funds for ineligible students, and was not always timely in returning those funds; and was not always timely
in reconciling school records with the Direct Loan Servicer’s records.
We recommended that OPE immediately provide the university with the technical assistance and information needed to promptly process
the unrecorded loan disbursements and resolve EDExpress software problems.

                                                             Q         Q        Q




                                                                      15
           SIGNIFICANT AUDITS AND AUDIT-RELATED ACTIVITIES


                             The Massachusetts Corporation For Educational Telecommunications
                                         Must Use a Restricted Indirect Cost Rate
                                                For Charging Indirect Cost
                                                    to Federal Grants
                                                      ACN 01-60008    September 4, 1997

Our review found that, during the fiscal year ending June 30, 1995, the Massachusetts Corporation for Educa-tional
Telecommunications (MCET) charged indirect costs to ED’s grants using a general indirect cost rate. However, MCET is a state
agency and grantee under a program with a statutory requirement for using a restricted indirect cost rate. We recommended that the
Secretary require MCET to:
1)      comply with the restricted indirect cost provisions when accumulating the indirect cost pool;
2)      eliminate from the pool $991,552 in salaries and related fringe benefits;
3)      add to the base the costs removed from the indirect cost pool;
4)      remove from the pool, and add to the base, costs associated with the identified unallowable personnel costs cited (i.e. travel,
        membership and dues, meetings, and conferences); and
5)      recalculate and apply the finalized restricted indirect cost rate to the federal grants
We also found that MCET allocated salaries and fringe benefits for two employees to the indirect-cost pool based upon estimates.
Because MCET could not substantiate the estimates, we were unable to verify the accuracy of $36,138 allocated to the indirect-cost
pool.
We recommended that the Secretary require MCET to either provide ED with documentation that will demonstrate that the unsupported
salary allocations to the indirect cost pool were accurate, or eliminate the $36,138 from the indirect-cost pool and add these costs to
the base. In the future, MCET should not charge to the indirect-cost pool salaries that cannot be supported by cost studies and/or time
sheets.


                       ’ Elementary, Secondary and Other Education Programs ’

                        Star Schools Program Grantee’s Project Management Was Seriously Deficient
                                         An Audit of the Star Schools Grant as Administered by the
                                            Central Educational Telecommunications Network
                                                      ACN 03-50200   September 30, 1997

Our audit disclosed that Central Educational Telecommunications Network (CETN) was not in compliance with the requirements of
the grant. We found that CETN’s management of the project was seriously deficient. CETN failed to establish an adequate financial
management system, demonstrate fiscal responsibility, and pro-vide sufficient services to the four partner cities through which the
project was administered.
In view of the seriousness of the deficiencies noted during our audit, we recommended that ED initiate action to debar the grantee and
its principal employees from further participation in federal programs.
We also recommended that ED require the grantee to:
1)      provide proper documentation to support its matching expenditure under the grant agreement, and make the appropriate refund
        for any grant funds received for which proper matching (25% requirement) cannot be established;
2)      refund $316,457 identified as used for unallowable purposes;
3)      provide proper documentation to support $1,733,887 and $343,880 respectively identified as unsupported and inadequately
        supported and refund portions for which proper documentation cannot be provided; and
4)      obtain an A-133 audit for the grant period.

                                                                     16
                                                                          SIGNIFICANT AUDITS AND AUDIT-RELATED ACTIVITIES


                                                            Q        Q        Q

                                 Review of Monitoring Controls Used to Ensure Fulfillment of
                                  Title VII Bilingual Education Grant Program Objectives
                                                       ACN 04-60152       June 30, 1997

We planned and initiated this audit in response to concerns identified during our overall survey of the Improving America’s Schools
Act (IASA). The IASA survey report identified concerns that centered on whether the bilingual programs are meeting the objectives
of the IASA as well as the objectives of the individual grants. The report also identified Congressional concerns about possible
excessive use of the students’native language.
Our audit identified a need for improving the grant control environment to include additional monitoring by OBEMLA and the state
educational agencies (SEAs). Without monitoring, officials cannot ensure that:
1)      bilingual program objectives are being met;
2)      Title VII grant dollars are being used appropriately by grant officials and the project directors; and
3)      grants are fulfilling the Department’s capacity-building policy to assure that the schools can continue to offer bilingual
        education after federal assistance is reduced or eliminated.
Ultimately, the students may not learn the new language as needed.

We recommended that OBEMLA work with appropriate officials to:
1)      revise Title VII of the IASA to clarify the need and requirement for federal-level monitoring of reviews of grants; and
2)      develop and implement a monitoring program to provide for thorough on-site reviews of Title VII grants and thorough
        documentation of monitoring results.

                                                            Q        Q        Q

                             State and Local Education Agencies Need More Technical Assistance
                               To Take Full Advantage of the Flexibility Provisions of Title XIV
                                           of the Improving America’s Schools Act
                                                      ACN 04-70001       August 20, 1997

Our review found that state and local education agencies (SEAs and LEAs) need more guidance or technical assistance to take full
advantage of the flexibility provisions of Title XIV of the Improving America’s Schools Act. The review disclosed that, despite ED's
efforts, SEAs did not always encourage LEAs to implement the Title XIV provisions or provide guidance on how to implement them.
In addition, LEAs did not always know about or have sufficient guidance to implement the Title XIV provisions.
We recommended that ED:
1)      issue specific guidance on the consolidation of administrative funds and the use of unneeded funds;
2)      continue to improve its technical assistance relationships with each SEA; and
3)      continue to evaluate the effectiveness of its actions to increase SEA and LEA awareness and under-standing of the Title XIV
        provisions. We also recommended that OESE's Regional Service Teams work with SEAs on using the Title XIV provisions.

The Department subsequently issued specific guidance on the consideration of administrative funds and the use of unneeded funds on
September 19, 1997. While our audit focused on recommendations to the Department, we recognize that SEAs have a critical role in
the implementation of the Title XIV provisions at the state and local levels. Thus, we are also suggesting that SEAs work to ensure
better distribution of information and technical assistance about the Title XIV provisions.




                                                                     17
           SIGNIFICANT AUDITS AND AUDIT-RELATED ACTIVITIES


Finally, the implementation of the Title XIV provisions ultimately depends on the LEAs. Thus, we are suggesting that they ensure
better distribution of information received and ask for assistance from the SEA and ED as needed.

                                                              Q       Q        Q

                         Four Factors May Have Contributed to the High Employment Outcome Rate
                                          at the Texas Rehabilitation Commission
                                                      ACN A09-60004     September 15, 1997

Data reported by state vocational rehabilitation (VR) agencies show that the Texas Rehabilitation Commission (TRC) has been more
successful than other large state agencies in achieving or maintaining employment for individuals with disabilities. In an effort to
identify factors that may have contributed to TRC’s success, we compared TRC’s VR program with the program administered by the
California Department of Rehabilitation (DOR). Our comparison found significant differences in the characteristics of the clients
served which explained, in part, TRC’s ability to achieve a higher employment outcome rate. However, the entire difference between
the state-agency employment outcome rates was not explained by these differences in client characteristics. Three other factors that
may have contributed to TRC's success are its use of performance measurements, sup-port provided to counselors, and source of
matching funds.
Because it is difficult to measure the individual or collective impact that these four factors had on TRC's ability to achieve employment
outcomes for its clients, we did not include a recommendation that the Rehabilitation Services Administration (RSA) require state
agencies to implement a specific TRC policy or procedure, or suggest that state agencies control which clients receive services solely
for the purposes of achieving a higher rate of employment outcomes. However, we did recommend that RSA encourage state agencies
to explore TRC’s prac-tices when designing improvements to their VR programs. In addition, we suggested that RSA may want to
use information in the report to target areas for technical assistance provided to state agencies and to identify areas for its own future
research projects.

                                                              Q       Q        Q

                                            A New Formula Is Needed to Equitably Allocate
                                           Vocational Rehabilitation Program Funds to States
                                                         ACN 09-53006      July 18, 1997

The report disclosed that the current statutory formula used to allocate Vocational Rehabilitation funds to the states contains a number
of provisions that result in states receiving funding that is not proportionate to the number of individuals with disabilities residing in
the state. The amount received by states from the 1996 appropriation ranged from $101 to $327 per individual with a work disability.
We recommended that the Department request that Congress replace the current formula with one that uses the number of individuals
with work disabilities in each state as the primary factor in allocating Vocational Rehabilitation Program funds. The Department should
derive the number of work-disabled from census data or information from other independent sources. In addition, we suggested that
other factors, such as performance and cost of providing services, be considered for inclusion in the formula.




                                                                      18
                                                                          SIGNIFICANT AUDITS AND AUDIT-RELATED ACTIVITIES



                                           ’ Departmental Management ’
                                     Office of Special Education and Rehabilitative Services
                                         Secretarial Review Process in Need of Change
                                                      ACN 11-50201        August 22, 1997

Our audit of the Office of Special Education and Rehabilitative Services’(OSERS) Secretarial review process recommended that the
review process be replaced with an enhanced monitoring system of state special education program complaint processes. Authorized
by the implementing regulations of the Individuals with Disabilities Education Act (IDEA), the Secretarial review process provides
complainants with an avenue for federal review of disputes regarding final decisions by state education agencies pertaining to the
education of children with disabilities.
Our review found that the Secretarial review process provides minimal benefit. OSERS grants only a small per-centage of the requests,
and ultimately, only a few complainants receive any realized benefit. Further, the Department does not issue final decisions on
Secretarial review requests in a timely manner. The Department has routinely taken longer than one year to process these requests.
                                                            Q         Q        Q

                         The Report of Independent Accountants on the U.S. Department of Education
                                  Fiscal Year 1996 Department-wide Financial Statements
                                                       ACN 17-60002        July 31, 1997

Pursuant to the requirements of the Chief Financial Officers Act of 1990 and the Government Management Reform Act of 1994, the
Department prepared consolidated financial statements to present its financial position and results of operations as of September 30,
1995 and 1996. The Department finalized its 1996 consolidated financial statements in July 1997 and the auditors issued their reports
the following month.
The report of the independent public accountants of Price Waterhouse, LLP, indicated they were not able to express an opinion on the
consolidated financial statements because the Department’s documentation of the basis for certain estimates did not provide the auditors
sufficient evidence to conclude whether the amounts were materially over- or understated. The estimates affected were the liabilities
for loan guarantees under the Federal Family Education Loan (FFEL) Program, the allowance for uncollectible defaulted guaranteed
loans, the allowance for direct loan subsidy costs, and the related guaranteed and direct loan subsidy expenses.
In addition, certain amounts reported by the Department in its fiscal year 1995 consolidated financial state-ments were not sufficiently
supported by reliable accounting information and certain differences between finan-cial statement amounts and underlying accounting
records could not be adequately explained. These amounts included the estimated liabilities for loan guarantees under the FEEL
Program, the receivables for defaulted guarantee loans, the reserve funds maintained by guarantee agencies, and fund balances with
U.S. Treasury.
 The report on internal controls disclosed material weaknesses and reportable conditions in the internal control structure and its
operation. The material weaknesses relate to the following issue areas:
0       Subsidy estimates for the Department’s loan programs
0       FFEL Program — guaranty agency oversight
The reportable conditions relate to the following areas:
0       Fund balances with Treasury
0       Student financial assistance programs
0      Controls over automated systems
The report on compliance with laws and regulations disclosed no instances of non-compliance that are required to be reported under
Government Auditing Standards.

                                                             Q        Q       Q




                                                                     19
           SIGNIFICANT AUDITS AND AUDIT-RELATED ACTIVITIES


                                     Cooperative Audit Resolution and Oversight Initiative
As reported in previous Semiannual Reports, we have been working with an intra-departmental team on a wide-ranging project known
as the Cooperative Audit Resolution and Oversight Initiative, or CAROI. The goal is to improve education programs and student
performance at state and local levels through the better use of audits, monitoring and technical assistance. Because of the number of
inquiries and requests from states to participate in the CAROI process, we are working with the Department to further streamline and
institutionalize the process.
The following are the team’s accomplishments during the reporting period.

                                         #1: Create and Maintain a Dialogue with States
The CAROI team and ED program officers produced a question-and-answer document for national distribution that addresses the new
flexibility provisions under the Elementary and Secondary Education Act (ESEA). This guidance will assist state and local education
agencies (SEAs and LEAs) in implementing the new provisions as well as provide criteria for auditors in their review of SEAs and
LEAs.
This period the team addressed the Association of Government Accountants’National Professional Development Conference in Phoenix,
Arizona, and a local chapter meeting of the Association of Government Accountants in Atlanta, Georgia. In addition, the team is in
the process of establishing an Internet address to facilitate com-munication with our CAROI partners and the dissemination of
information concerning the CAROI process. During the next reporting period, the team will make presentations at each of the three
regional Improving America’s Schools conferences.

                            #2: Work with States to Resolve Open Audits or Audits Under Appeal
This period the team reached an agreement with the Commonwealth of Pennsylvania to begin the most wide- ranging initiative attempted
under the CAROI process. Several years of unresolved audit findings affecting six Department program offices and multiple
Pennsylvania agencies will be addressed during the next reporting period. It is hoped that a comprehensive agreement between the
Department and Pennsylvania can be accom-plished by February 1998. To assist with the Pennsylvania effort, and provide guidance
in the publication of a procedural handbook, the team has contracted with a consultant who has experience in past CAROI projects.

                                              #3: Improve the Single Audit Process
The team continued to work with Department program staff and an OMB task force to revise the OMB Com-pliance Supplement that
is used by auditors for audits of Department programs.
The team also worked with state auditors from Washington and Georgia on a pilot project under provisions of the Single Audit Act
Amendments. The goal of the pilot project is a comprehensive report on how federal programs are managed at the local level. At
present, the Department receives little information from the single audits that are conducted at most LEAs. These pilot projects would
give federal program managers information on how federal programs operate at the local level.

                                 #4: Coordinate Audits, Monitoring and Technical Assistance
The CAROI team continues to work with Department managers in integrated reviews and other state program monitoring efforts.
CAROI team members are working with program officials to ensure the link between audits, monitoring and technical assistance.
The CAROI team also is participating as a member of the Department’s Data Coordination group, which is considering more efficient
and effective approaches to data-collection coordination and usage. CAROI members are working to ensure that information on
oversight activities is available to individuals who need it to further promote the efficient and effective use of federal funds.




                                                                 20
                                                              Abstract 2

                               SIGNIFICANT PROSECUTIVE ACTIONS
                              RESULTING FROM OIG I NVESTIGATIONS
                                            April 1, 1997 – September 30, 1997




                            ’ School Owners, Officials and Employees ’

                                                    Toldos Yakov Yosef Seminary
                                                          Brooklyn, New York
                                            C HAIM B ERGER , chairman of the board of directors
                                                    D AVID F RIESEL , financial aid officer
                                 KALMEN S TERN , D AVID GOLDSTEIN , JACOB E LBAUM and B ENJAMIN B ERGER ,
                                                            administrators/staff

Six individuals were charged in a 21-count indictment unsealed in Manhattan federal court, Southern District of New York, with
participating in several fraudulent schemes to obtain tens of millions of dollars through federal and state grant, loan and subsidy
programs. The indictment, which includes charges of conspiracy, mail fraud, wire fraud and embezzlement, alleges that the
defendants — Chaim Berger, chair-man of the board of directors of Toldos Yakov Yosef Seminary (TYY), Brooklyn, New York;
Avrum David Friesel, TTY's financial aid officer, and Kalmen Stern, David Goldstein, Jacob Elbaum and Benjamin Berger,
members of TTY's administration, faculty or staff — for the benefit of the Village of New Square, an incorporated village in
Rockland County, New York:
1)   created entities through which federal and state program funds could be obtained;
2)   submitted fraudulent documentation to establish the eligibility of New Square residents and others to participate in these
     programs;
3)   used the funds obtained from these programs for improper purposes; and
4)   concealed their fraud by using false names and nominee bank accounts.
A joint investigation by the Department of Education (ED)/OIG, the Small Business Administration (SBA) OIG, the Department
of Housing and Urban Development (HUD) OIG, and the Internal Revenue Service developed evidence that the defendants
assisted in enrolling thousands of New Square residents and others in postsecondary education programs in order to obtain tens
of millions of dollars in Pell Grant, Tuition Assistance Program, and other student financial assistance (SFA) funds. Most of
the students were enrolled in "independent study" programs that permitted them to study under the guidance of "mentors" without
attending classes.

The indictment alleges that the defendants used fraudulent means to conceal the fact that many of the students were ineligible
to receive financial aid because they were not seeking a certificate or degree or because they were still in high school. Some of
the students allegedly obtained Pell grants for 10 years or more without ever receiving a degree or certificate reflecting their
completion of a program of study. In addition to the education-related charges, the defendants were also charged with misappro-
priation of SBA and HUD funds.



                                                                   21
           SIGNIFICANT INVESTIGATIONS



                                                           Q      Q      Q

                                                    Midwest Career College
                                                        Indianapolis, Indiana
                                                      ROSE KING /T ARTER , owner

Rose King/Tarter, owner of Midwest Career College, Indianapolis, Indiana, pled guilty to a one-count information charging her
with student financial aid fraud. The scheme at the now defunct proprietary school defrauded the Department of Education of
over $130,000 in guaranteed student loan (GSL) and Supplemental Loans for Students (SLS) funds. Our investigation disclosed
that the subject failed to notify a lender when students dropped out of the school and took monies for these individuals to which
she was not entitled.

                                                           Q      Q      Q

                                                    Camden Beauty College
                                                         San Jose, California
                                                        NEENA KHANNA , owner

An information was filed against Neena Khanna, owner of Camden Beauty College, San Jose, CA, charging her with one count
of student financial aid fraud. Our investigation developed evidence that Khanna falsified various documents on "no show"
students and received Pell Grant funds for these students. She also is alleged to have falsified a Free Application for Student
Aid on a student whose mother had paid the full cost of attendance, and obtained a Pell grant in this student’s name. Khanna
further allegedly received Pell Grant funds for students who were receiving Regional Occupation Funding. The investigation
also disclosed that Khanna failed to make refunds either to the students or to the school's federal funds account on any of these
students.

                                                           Q      Q      Q

                                                      Romar International
                                                         Titusville, Florida
                                                        S UE M CNAMARA , owner
                                                      J OANN BRATTON , registrar
                                                        TERRY DIEHL , registrar

Sue McNamara, former district manager of Romar International, Titusville, Florida, was sentenced to 6 months house arrest,
2 years supervised release and 50 hours community service and was fined $50 and ordered to pay restitution of $8,588 to the
Department of Education after pleading guilty to one count of bank fraud. Joann Bratton, former registrar at Romar
International, was sentenced to 4 months house arrest, 2 years supervised probation and 50 hours community service and was
ordered to pay restitution of $2,481 to ED after pleading guilty to the same offense. Terry Diehl, who was also a registrar at
Romar, pled guilty to one count of bank fraud and will be sentenced in January 1998.
A joint OIG/FBI investigation revealed that McNamara and Bratton conspired with others in a scheme to defraud ED and various
banks by enrolling ineligible students at Romar and falsely certifying the students' eligibility on federal student loan applications.
The fraudulent activities identified to date amount to approximately $800,000. The investigation is continuing and other
indictments are anticipated.
Romar International, owned by Rose Manzo, operated nine beauty schools in the state of Florida from 1981 through 1994. Five
of the nine schools subsequently closed as a result of the OIG investigation, emergency action by the Office of Student Financial
Assistance, and finally, the decision by an admin-istrative law judge to terminate the school's eligibility and impose a fine. The
decision was upheld by the Secretary of Education. The remaining four schools later closed.

                                                           Q      Q      Q


                                                                 22
                                                                                                SIGNIFICANT INVESTIGATIONS



                                                   Cosmetology Training Center
                                                         Minneapolis, Minnesota
                                                           J AY S CHREUER , owner

Jay Schreuer, former owner of the Cosmetology Training Center, was sentenced in U.S. District Court, District of Minnesota,
to serve one day in jail and five years probation and ordered to pay $60,000 resti-tition after pleading guilty to a one-count
information charging him with bank fraud. An OIG investiga-tion disclosed that, from June through September 1992, Schreuer
defrauded three banks — First Bank Eden Prairie, Norwest Bank Mankato, and Norwest Bank Rochester — by executing a
check-kiting scheme using federal financial accounts which resulted in a loss of $219,000. (Semiannual Report No. 32, page
17)

                                                              Q      Q      Q

                                                   Minerva Del Rio , adjunct professor
                                                               Mercy College
                                                           New York, New York

In the U.S. District Court, New York, New York, Minerva Del Rio pled guilty to a criminal information charging her with two
felony counts . One of the counts charged Del Rio with conspiring to obtain federal student financial assistance funds through
fraud, false statements, forgery and the submission of false Social Security numbers. The other count charged Del Rio with
conspiring to enter into marriages for the purpose of evading provisions of immigration laws.
Investigation disclosed that between 1991 and January 1997, Del Rio assisted aliens in submitting false applications for student
loans and grants through the financial aid office of Mercy College, Bronx, New York. Del Rio was employed as an adjunct
professor at Mercy College between 1990 and 1995. Investigation also disclosed that between 1972 and January 1997, Del Rio
arranged sham marriages between aliens and United States citizens.

                                                              Q      Q      Q

                                                     C ALIFORNIA CRIME RING
                                                             PLUS loan fraud
                                                     Priscilla's Professional Services
                                                         Los Angeles, California
                                            P RISCILLA ANN H AMILTON aka P RISCILLA P INSON , owner
                 with D EBRA L ORRAINE B RADFORD , VALERIE R ENEE GREEN , L ASHAWN R ENEE L UTCHER , JABALI ABAYOMI OLIVER
               Y OLANDA C ARTHON , C LARENCE WEEKS , R ICKY GRIFFIN , S HARLETTE WHITE , JAMES S HEAD , and T ROY ANTHONY R AY

Eleven people pled guilty or were convicted during a federal criminal trial in a massive student loan, IRS tax and Housing and
Urban Development benefits fraud scheme. The conspiracy group operated out of a Los Angeles storefront and caused at least
$1 million in losses.
A multi-agency investigation involving the use of undercover agents, search warrants, both ground and air surveillance, and
consensual telephone monitoring uncovered the California fraud ring. Hamilton and others under her direction bribed a Social
Security Administration employee and California Department of Motor vehicle employees in order to obtain fraudulent Social
Security numbers and drivers licenses.
The scheme involved using the fraudulently obtained SSNs and drivers licenses to complete and submit over 30 applications for
federal Parent Loans for Undergraduate Students (PLUS loans) on behalf of indi-viduals who were not attending the college,
as well as federal tax returns and applications for HUD housing benefits. The ring used the school codes for the processing of
student loans from the University of South-ern California, Grambling State University, University of Houston and many other
well-known univer-sities.



                                                                     23
           SIGNIFICANT INVESTIGATIONS



                                                 ’ Civil Actions ’

                                                   Richard Sevilla , student
                                                     Gina Sevilla , parent
                                                       Astoria, New York

Richard Sevilla, a Dartmouth College student, and his mother, Gina Sevilla, were ordered by the United States District Court
in Concord, New Hampshire, to pay a civil judgment in the amount of $30,000. The judgment was ordered in response to a
civil complaint charging the Sevillas with making multiple false statements on SFA applications.

                                                        Q       Q        Q

                                             Belford A. Blackman.    doctoral candidate
                                                       Salamanca, Spain

A civil lawsuit brought by the United States against former Middlebury College student Belford Blackman was settled this period
in the amount of $105,446. The lawsuit alleged that Blackman defaulted on 21 federally guaranteed student loans and
misrepresented the extent of his prior federal student loan debt on the application forms.
Blackman received a Bachelor of Arts degree from Middlebury College in 1956 and a Masters of Arts from Middlebury in 1958.
In the summer of 1987, Blackman again pursued graduate studies at Middlebury and began obtaining student loans from the
Vermont Student Assistance Corporation (VSAC). He then attended the University of Northern Iowa and the University of
Salamanca in Spain. From March 1988 through July 1992, Blackman received 21 student loans guaranteed by the federal
government totaling over $99,000, using the majority of these loans to pursue a doctorate degree at the University of Salamanca
in Spain.

The United States alleged that on 16 of his student loan applications, Mr. Blackman misrepresented the amount of the federally
guaranteed student loans he had previously received. Because the Department of Education imposes a limit on the total amount
of federally guaranteed student loans for which one is eligible, Mr. Blackman’s misrepresentations enabled him to receive
approximately $15,000 more in student loans than he would have otherwise been eligible.

                                                            9   9    9

                                                   First Tennessee Bank
                                                      Memphis, Tennessee

First Tennessee Bank, National Association (FTB) agreed to pay $2.75 million to settle a pending lawsuit filed against the bank
in U.S. District Court in Knoxville, Tennessee. The agreement settled a suit alleging that FTB falsified its collection efforts
before submitting a total of more than $1.3 million in claims to ED for payment. In addition to the settlement, FTB previously
repurchased more than $200,000 in loans, and ED and the IRS have collected nearly $1 million from the defaulted borrowers
in aggressive post-default collections.

The settlement is the result of a joint OIG audit/investigative effort, which developed evidence that typed collection histories
submitted as documentation for due diligence efforts contained fabricated information. Additionally, forged forbearance docu-
ments were discovered for more than $200,000 in loans. This falsification of collection histories caused FTB to misrepresent
its collection efforts and thereby submit false claims for reinsurance to ED during 1987 and 1988.

                                                        Q       Q        Q




                                                                24
                                                                                            SIGNIFICANT INVESTIGATIONS



                                                   William Carey College
                                                     Hattiesburg, Mississippi
                                                 JAMES W. EDMONDS , president
                                                  BARBARA JONES , consultant

William Carey College; the college’s president, James W. Edwards; and Barbara Jones, the college’s con-sultant, agreed to pay
the United States Government $345,366 in order to settle claims under the False Claims Act, associated with a Title III,
Development Grant provided by ED.
A two-year OIG investigation revealed that in May 1994, the college, Edwards and Jones falsely represent-ed in an ED grant
application that certain academic programs and services were assessed and developed by a “Long Range Planning Committee”
and a “Long Range Strategic Plan” with input from all segments of the college community. The grant application further falsely
represented the existence and work prod-uct of a “Management and Student Information Task Force” and a “Faculty
Development Committee.”
In addition to repaying $345,366 to the United States, the college agreed that it would not receive an additional $985,534 which
it was otherwise scheduled to received under the grant.




                                       ’ Other Investigative Cases ’

                                                Reingold & Associates, Inc.
                                                       Rio Piedras, Puerto
                                           JAIME L. VAELLO C ARMONA , owner and president

Jaime Vaello Carmona, owner and president of Reingold and Associates, pled guilty to one count of stu-dent financial aid fraud
after being charged by a federal grand jury in the District Court of Puerto Rico. A joint investigation by ED/OIG and the Federal
Bureau of Investigation (FBI) found evidence that Vaello devised a scheme to defraud the Perkins Loan Program of $50,000.
The investigation disclosed that Vaello continued to represent to the Perkins Loan debtors of the University of Puerto Rico
(UPR), Mayaguez and Rio Piedras branches, that he was an authorized collection agent after his contracts with the UPR termin-
ated. Vaello continued to receive payments from the Perkins Loan debtors and, between September 1993 and October 1995,
failed to remit to UPR approximately $50,000 in collected funds.

                                                          Q      Q      Q


                                                    Rollie Romero-Eaton
                                                      Boston, Massachusetts
                                                    OIG Foreign Schools Project

A federal grand jury in Boston, Massachusetts, indicted Rollie Romero-Eaton on 34 felony counts of bank fraud, wire fraud and
mail fraud in relation to his alleged submission of fraudulent Federal Family Edu-cation Loan Program (FFELP) applications.
The indictment charges that between August of 1994 and May of 1997, Romero-Eaton defrauded the Department of Education,
federally insured banks and guaranty agencies of $129,500 by forging enrollment certifications and falsely claiming enrollment
at the University of Kent in Canterbury, England.
Romero-Eaton had been arrested by OIG agents in Irving, Texas, based upon a criminal complaint filed in the District of
Massachusetts. This case is part of the OIG's ongoing foreign schools investigation.
                                                          Q      Q      Q


                                                                25
           SIGNIFICANT INVESTIGATIONS




                                       Anne Marie Debarros-Goncalves , former student
                                                    University of Massachusetts
                                                   Dorchester, Massachusetts
Anne Marie Debarros-Goncalves was sentenced in U.S. District Court, Boston, Massachusetts, to three years probation and was
ordered to pay restitution of $15,085. Debarros-Goncalves, a former student at the University of Massachusetts, previously
pled guilty to a one-count information charging her with student loan fraud. In addition, she was convicted of SFA fraud in
connection with false citizenship claims on Title IV applications.

                                                          Q      Q      Q


                                                    Sherolyn Denise Larkin
                                                         Detroit, Michigan

Sherolyn Denise Larkin was indicted in the Eastern District of Michigan on 21 counts of mail fraud and 4 counts of SFA fraud.
From approximately 1989 to the present, Larkin has owned and operated a business in Detroit, Michigan, and most recently in
Huntsville, Alabama, the purpose of which, according to evidence developed by investigators, was to falsify SFA applications.
.
  According to investigators, Larkin charged her customers a fee of between $275 to $350 for her assis-tance in supplying
universities and the government with false income information on behalf of her stu-dent/parent customers. To support the low
income figures reported for the students and/or the parents, Larkin allegedly supplied false income tax returns to the universities,
thereby enabling the students to receive federal grants for which they would have otherwise been ineligible.
At this time, our investigation has uncovered approximately 300 customers of Denise Larkin, as well as evidence that
approximately $600,000 in Pell and Supplemental Educational Opportunity Grants has been fraudulently disbursed due to
Larkin's activities.

                                                          Q      Q      Q


                                                     Michael E. McSheehy
                                                        Rochester, New York
                                                     OIG Foreign Schools Project

Michael E. McSheehy was indicted by a federal grand jury in Rochester, New York on three counts of student financial
assistance fraud. The three felony counts relate to the alleged fraudulent receipt of Stafford loans for attendance at Ross
University School of Medicine in Dominica, West Indies. McSheehy, according to the indictment, used a deceased person’s
Social Security number on the ques-tioned loan applications and failed to disclose prior student loan defaults. This investigation
was developed under the OIG’s foreign schools project.

                                                          Q      Q      Q




                                                                 26
                                                                                        SIGNIFICANT INVESTIGATIONS



                                                     Donald Dover
                                                  Grand Rapids, Michigan

Donald Dover was sentenced in the Western District of Michigan to 78 months in prison and 5 years of supervised
release, fined $10,000, and ordered to pay $481,942 in restitution. An OIG investigation disclosed that, from the fall
of 1994 through May 1                                                   9                                               9
found that Dover engaged in a
them for educational purposes relating to at-tendance or continual attendance at Michigan State University as required.
Dover registered fo                                                                                               r
During this period he only earned 3 credits.

                                                      Q     Q      Q

                                                 Stephen Wesle Kiser
                                                   Birmingham, Alabama

Stephen Wesle Kiser pled guilty in the Northern District
statements on Pell Grant and federal student loan applications. Kiser enrolled as a student at Jacksonville State
University, Jacksonville, Alabama, and received federal student fi
of the following deceased individuals: Joey Roddy, Ronnie Mobley, Robert Stepps, and Steve Baker.
The OIG investigation revealed that Kiser used numerous false ident
during the period 1991 through 1997 in at least three different schools.



                         ’ UPDATE on Previously Reported Cases ’

                                     Programming and Systems, Incorporated
                                                     Cleveland, Ohio
                               I RWIN M AUTNER , former chairman and chief executive officer
                                  RONALD SUNDICK , former national financial aid director

Irwin Mautner, f
incarceration and 3 years of probation and fined $25,00
to educationally or financially deprived students. The corporation was fined $500,000 and was also ordered to make
restitution in the amount of $500,000. In addition, Ronald Sundick, PSI’s former national financial aid director, was
sentenced to three years probation and fined $10,000.

In Novembe
with mail fraud, conspiracy and making false statements. The indictment
to defraud the Department of Education by using improper recruiting practices and deceiving PSI’s accrediting agency
in order to maintain the schools’ eligibility for Title IV funds. During the time period charged in the indictment, the PSI
schools received in excess of $140 million of Title IV funds. PSI was a publicly traded corporation that owned and
operated proprietary schools in Ohio, New York, Michigan, Indiana, Florida, North Carolina, Pennsylvania, Maryland
and Washington, D.C. (Semiannual Report No. 34, page 26 and Semiannual Report No. 33, page 17)

                                                      Q     Q      Q

                                          Interamerican Business Institute



                                                            27
           SIGNIFICANT INVESTIGATIONS



                                                    Chicago, Illinois
                                                 DIEGO AGUIRRE , owner

Diego Aguirre, former owner of Interamerican Business Institute (IBI), was found guilty in the Northern District of
Illinois of three count                                                                                              s
January 1996 after an OIG investigation revealed that between 1989 and 1992, Aguirre converted to his own use the
proceeds of 232 student loan checks worth approximately $291,490.
had decided not to attend the school or had attended a short period of time, and the funds were to be returned to the
lending institution. To conceal his ac-tions, Aguirre closed the school and destroyed t h e       f i l e s          o f    t
he cashed. Aguirre failed to appear on the date of his sentencing, and is now a fugtive. (Semiannual Report No. 33, page
24, and Semiannual Report No. 32, page 18)

                                                     Q      Q      Q

                                       WKG-TV Video Electronics College
                                                 Baton Rouge, Louisiana
                                           CHARLES RAYMOND COLEMAN , owner

Charles Raymond Coleman, owner of WKG-TV Video Electronics College, Baton Rouge, Louisiana, was sentenced to
four years probation, ordered to reside for a period of six months in a halfway house, as-sessed $100 and required to
make restitution in the amount of $2,415 after pleading guilty to a two-count information charging him with
misapplication of guaranteed student loan funds.
A joint investigation by ED/OIG and the FBI revealed that Coleman had either deposited approximately $20,000 in
student loan checks in his personal bank a
the time these checks w
a refund. No refunds were ever made. (Semiannual Report No. 34, page 20)

                                                     Q      Q      Q

                                                  Charles M. Roper
                                               N ATIONAL THEATER OF THE DEAF
                                                  Chester, Connecticut

Charles M. Roper, former executive director of the National Theater of the Deaf (NTD), Chester, Con-necticut, was
sentenced in U.S. District Court
in restitution and a $100 special assessment. Following his release from prison, Roper will be on supervised release for
three years.
Roper pled guilty in February 1997 to a one-count information charging theft after a joint ED/OIG and Postal Inspection
Service investigation found evidence that Roper illegally used NTD funds to lead an extravagant lifestyle, which included
gambling and the purchase of antique furniture and fine clothing. The National Theater of the Deaf, an internationally
known, nonprofit theater group, receives funding from ED, the National Endowment for the Arts, the Lila Wallace
Foundation, and private donors. (Semiannual Report No. 34, page 18)

                                                     Q      Q      Q




                                                            28
                                                                                       SIGNIFICANT INVESTIGATIONS



                             Jules Hairstylist, Inc., T/A Flair Beauty Institutes,
                      Washington, D.C. Beauty Academy and Annapolis Beauty Academy
                                                  Oxon Hill, Maryland
                                        IRVING LAWRENCE BERNFELD , former owner
                                              CAROL S APP , former employee

Lawrence Bernfeld, former owner of Jules Hairstylist, In
Richmond, Virginia, to three years probation and four months electronically monitored home confinement, and was
ordered to obtain mental health treatment as approved by probation authori-ties and to make restitution of $12,465.
Bernfeld made full restitution at the conclusion of the sentenc-ing proceedings.
In addition, Carol Sapp, a former employee of Jules Hairstylist, Inc., was sentenced in federal district court, Richmond,
Virginia, to one year's probation and ordered to make restitution of $12,465. Bernfeld and Sapp had previously pled
guilty to a one-count information charging them with mail fraud in connec-tion with their roles in a scheme to defraud
ED's Pell Grant Program.
  A joint OIG/FBI investigation developed evidence that Bernfeld failed to refund Pell Grant funds to ED for
approximately 40 students who had withdrawn from classes before completing the course of instruction. Bernfeld
directed his employees to create false documents to make it appear that the scho
her home in North Berwick, Maine, identified the students who were due a tuition refund, and calculated how many
additional hours
smaller refund was due. Sapp provided thi
their attendance. (Semiannual Report No. 34, page 21)

                                                     Q      Q     Q

                                               Revell Training Center
                                            Chicago and Melrose Park, Illinois
                                            G EORGE C. TINDALL , former owner

George Tindall, the former owner of the Revell Training Center with loc
sentenced to five years of imprisonment and three years of supervised
of $936,975. Tindall pled guilty in April to one count of SFA
to defraud the Department of Education and banks of approximately $936,000.
Tindall had a record of white-collar crimes — from writing bad checks, to posing as an income tax col-lector and eliciting
money
result of his prior record, Tindall received the maximum sentence under the sentencing guidelines. In addition to his
sentence, Tindall was ordered to pay 25 percent of his gross monthly income toward restitution upon release from
incarceration, as well as any earnings received during his incarceration.

During the period from July 1990 through April 1992, Tindall and Revell operations manager Carleton Lewis devised
and participated in a scheme to defraud ED, First of America Bank, First Federal Bank and 438 students of
approximately $936,975 in guaranteed student loan and Pell Grant funds. As part of the scheme, Tindall instructed RTC
employees not to complete the required GSL and SLS Notice of Guarantee and Disclosure Statements listing the
enrollment status of students, causing first and second checks to be issued by the banks.
Furthermore, Tindall ignored information and advice from RTC employees regarding his policy of depos-iting GSL
checks without student endorsements for students who never started class or withdrew prior to the receipt of their checks.
Tindall also requested Pell and Supplemental Educational Opportunity Grant funds for students who never started classes
or withdrew prior to the midpoint of the program. (Semiannual Report No. 34, page 19)


                                                           29
           SIGNIFICANT INVESTIGATIONS



                                                        Q      Q      Q

                           Robert D. Barber, former director/admissions representative
                                             E DMONDSON J UNIOR C OLLEGE
                                                      Nashville, Tennessee

Robert D. Barber, former school director for Edmondson Junior College,
the U.S. Attorney's offic
on one count of conspiracy to defraud ED. A joint OI G / F B I                i n v e s t i g a t i o n                              r e
Junior College, including Barber, conspired to defraud ED through coaching students to falsify Pell Grant and GSL
applications, and by falsifying ability-to-benefit tests. The amount of the fraud was approximately $300,000. Eight
former employees have already pled guilty to similar charges. Edmondson Junior College was a proprietary school
formerly l
page 26)

                                                        Q      Q      Q

                                                    Lamar S. Adams III
                                                        Houston, Texas

Lamar S. Adams III was sentenced in the Southern District of Texas, Houston Division, Houston, Texas, to 25 months
imprisonment and 3 months supervised probation and was ordered to pay restitution of $12,454 and a $150 special
assessment fee. The court ordered the sentence and probation to run con-current with the 10-year state sentence.

Adams was indicted last period on five counts of mail fraud, five counts of stu d e n t l o a n f r a u d a n d o n e c o u n t o f w i r e
after a jo
totaling approximately $120,000 to Texas Commerce Bank, Enterprise Bank (now Sterling Bank) and Houston National
Bank, all in Houston, Texas. (Semiannual Report No. 34, page 26)

                                                        Q      Q      Q

                                                    California Institute)
                                                   Long Beach, California
                                                  RONALD VAN AVERY , owner

Ronald Van Avery, owner and operator of California Institute (CI), was sentenced in the Federal Central District of
California to a six-year prison term and three years of probation. Previously, Avery was found guilty by a federal jury
in Los Angeles, California, of five counts of wire fraud and two counts of false statements arising from a scheme that
defrauded the Department of Education of at least $6.3 million. Avery retained guaranteed student loans that were
required to be returned to commercial lenders because the students ha
misstated CI’s financial status and performance by causing the preparation of false financial statements that either
omitted the refund liabilities or drastically understated them. Avery fraudulently retained CI’s eligibility with the
Department by making false statements to accreditation commissions, guaranty agencies and CPA’s.
According to evidence presented at the trial, Avery recruited students from such locations as homeless shelters,
unemployment offices and public housing projects, then retained the proceeds of the student aid for which they applied.
When the students dropped out, Avery kept the loan proceeds which he was re-quired by law to refund. During the trial,
nine former students testified that Avery’s actions denied them access to further student aid, tarnished their credit
histories, and caused extreme financial hardship. Avery used the millions of dollars to maintain an expensive and
luxurious lifestyle, purchasing and improving several parcels of real estate and purchasing luxury cars and expensive


                                                              30
                                                                                                     SIGNIFICANT INVESTIGATIONS



jewelry. (Semiannual Report No. 34, page 30; Semiannual Report No. 30, page 27; and Semiannual Report No. 32,
page 24)

                                                          Q        Q       Q

                                Ron Thomas School of Cosmetology and Barbering
                                                       Baltimore, Maryland
                                               RON THOMAS AND VON THOMAS , owners
                                                M ARY P ATRICIA K RESS , bookkeeper
                                                  M ARY INNISS , financial aid clerk
                                                   M ARY W ERHY , office manager

Ron and Von Thomas, owners of Ron Thomas Schoo                                                     l
aiding and abetting, as charged in a September 1996 indictment. The Thomases will be sentenced during the next
reporting period for their part in a scheme that defrauded the U.S. Department of Education of $2.5 million in federal
Pell grants.
Three other
this period in U.S. District Court for the District of Maryland, Baltimore, Maryland, for their participa-tion in the
scheme, as follows:
<    Mary Patricia “Patti” Kress, former bookkeeper, pled guilty to one count of wire fraud. She was was sen-tenced
     to three years of probation with 6 months of home detention, and was ordered to pay a $5,000 fine along with a
     special assessment of $50.
<    Mary Inniss, former financial aid clerk, pled guilty to one count of wire fraud. She was sentenced to 3 years of
     probation and 6 months of home detention, and was ordered to serve 300 hours of community service and to pay
     a $50 special assessment fee.
<    Mary Wehry, former office manager, pled guilty to one count of wire fraud. She was sentenced to one year of
     probation and was ordered to pay a $50 special assessment fee.
(Semiannual Report No. 33, page 18 )

                                                          Q        Q       Q

                                                   Oglala Lakota College
                                                        Kyle, South Dakota
                                      ARLYNN K NUDSEN , former vice president for business affairs
                                                    J ERRY DEAN GODFREY

Arlynn E. Knudsen, former vice president for business affairs at Oglala Lakota College (OLC), Kyle, South Dako-ta,
as part of a plea agreement, pled guilty in the District of South Dakota, to conspiracy, theft of federal funds, theft from
tribal organization, money laundering and asset forfeiture. Knudsen also agreed to waive indictment and plead guilty to
an information charging income tax evasion. Knudsen agreed to fully cooperate with the United States and to provide
truthful testimony before grand juries, at trial, and at other proceedings as required. Another participant in the
conspiracy, Jerry D. Godfrey, pled guilty to conspiracy, theft of federal funds, theft from tribal organization, money
laundering, and criminal forfei-ture. In addition, Godfrey agreed to waive an indictment and plead guilty to an
information charging him with income tax evasion. Charges against Marjorie J. Godfrey, who was also indicted last
period, were dropped this period.
A joint investigation by ED/OIG, the IRS, the FBI and the Department of Interior/OIG found evidence that from 1991
to 1994, a total of $2.6 million dollars in federal funds was embezzled from OLC, including ED funds (i.e., Pell Grant,
College Work-Study, Supplemental Educational Opportunity Grant, Endow-ment Challenge Grant, College Library


                                                                  31
            SIGNIFICANT INVESTIGATIONS



Technology & Cooperative Grant, Indian Education Special P r o - g r a m s & P r o j e c t s , T r a i n i n g P e r s o n n e l f o r t h e E d u c a t
of Individuals with Disabilities, Library Literacy, and Student Support Services funds).
The conspiracy involved OLC employees and other individuals who were not employed at OLC, including Godfrey. The
investigation revealed that OLC checks were being written and deposited into bank accounts of fictitious businesses
and/or companies that OLC did little if any business with. The embezzled funds were used to purchase real estate,
automobiles, drugs, art work, and trips to Las Vegas for gamb
page 22)




                                                                   32
                                                        Abstract 3

                                 CONGRESSIONAL T ESTIMONY
                                        (April 1 – September 30, 1997)




                             Department of Education Student Financial Assistance
                                     Information Systems Modernization
                                                        July 29, 1997

At the request of the House Subcommittee on Postsecondary Education, Training, and Life-Long Learning, Committee
on Education and the Workforce, the Inspector General (IG) testified about student fina
systems modernization. The IG stated that the Department faces significant challenges in meeting the mandates of the
Clinger-Cohen Act and in modernizing its SFA program systems. In his test
that are integral to the success of the Department’s systems modernization effort which need to be addressed to correct
the weaknesses that have resulted in the current ineffective systems. The four principal issues are:
1)   the need for a high degree of technical expertise on the part of Department managers and personnel in the area of
     information technology in order to design and manage the large and complex contracts that will be needed to
     modernize systems;
2)   the need for well-designed contracts and rigorous monitoring of contractors by the Department;
3)   the need for consistent and steady progress in efforts toward integration of SFA program information systems; and
4)   the need to overcome data-integrity problems in the loan systems that will undermine the effective-ness of even the
     most modern integrated information system if not corrected.

                                                    Q        Q          Q

                            Department of Education’s Loan Consolidation Process,
                                    Federal Direct Student Loan Program
                                                    September 18, 1997

The Inspector General testified before the House Subcommittee on Postsecondary Education, Training, and Life-Long
Learning, Committee on Education and the Workforce, about the loan consolidation process of the Federal Direct Student
Loan Program. Specifically, the IG’s testimony focused on the circumstances surrounding the suspension of student loan
consolidations and the urgent need in the student financial assistance programs for the Department to appoint a Chief
Operating Officer who possesses experience in managing large computer-based financial services operations. The IG
also stressed the need for qualified technical staff at the Department to write well-designed systems contracts and
rigorously monitor those contracts.

                                                    Q        Q          Q

                                    Department of Education’s Eisenhower
                                  Mathematics and Science Education Program

                                                            33
          CONGRESSIONAL TESTIMONY


                                                      July 8, 1997

The Deputy Assistant Inspector General for Audit (DAIGA) testified before the House Subcommittee on Oversight and
Investigations, Committee on Education and the Workforce, about the Department of Edu-cation’s Eisenhower
Mathematics and Science Program. The DAIGA’s testimony foc
report titled Improvements Needed to        A s s u r e                      t h e          D w i g h t                 D
Meets the Objectives of National Education Goal 4 and the Eisenhower Act. The DAIGA testified that during our audit
work, we found tha
the Department needed to improve its appli-cation review an
and its performance reports and assessment of program results. Speci
1)   establish and implement qualitative performance measures;
2)   collect data showing the effect of the program on students’ mathematics and science skills;
3)   provide guidance to states on gathering and reporting annual performance data;
4)   complete and disseminate the non-regulatory guidance to the states to assist them in improving stu-dents’
     mathematics and science skills;
5)   develop an application format and procedures to review state applications that facilitate an assess-ment of the
     quality of the states’ planned and completed programs; and
6)   develop and implement a formal system for scheduling program reviews.
The DAIGA stated that since our report was issued, the requirement to develop performance indicators for professional
development was included in the Improving America’s Schools Act of 1994. These indi-cators should contain measurable
outcomes in order to assess the results of the program.




                                                          34
                                                        Abstract 4

                                         ACTION M EMORANDA
                                          April 1 — September 30, 1997




                                              Postsecondary Education


NO. TITLE                                                                             ISSUED
1.     William D. Ford Federal Direct Loan Program Requirements for Funds              Apr-97
       Generated by Adjustments/Cancellations to Actual Disbursements Need
       Clarification

2.     Students with Defaulted Loans Continue to Receive Title IV Aid                  Jun-97

3.     William D. Ford Federal Direct Consolidation Loan Program Borrowers              Jul-97
       Unable to Reach Customer Service Representatives

4.     Program Reviews Conducted for the Period October 1, 1996 — May 31, 1997          Jul-97

5.     Longstanding Problems in Processing Audit Reports and Resolving Audit           Aug-97
       Findings Continue to Plague the Department

6.     The Department Has No Method to Track the Effect of Six New Institutional       Aug-97
       and Program Eligibility (Gatekeeping) Provisions Included by Section 481 of
       the Higher Education Amendments of 1992 Are Not Tracked by the Department

7.     Educational Institution Solicitation of Lender to Provide Inducements           Aug-97

8.     Survey of the Recertification Effort                                            Aug-97

9.     Strategic Planning and Performance Measurement for Guarantor and Lender         Sep-97
       Oversight Service Activities Can Help Foster Achievement of an Efficient and
       Effective Federal Family Education Loan Program

10.    Consolidation of Defaulted Student Loans                                        Sep-97




                                                            35
        ACTION MEMORANDA


11.    The Guarantor & Lender Oversight Service Can Further Improve its Audit     Sep-97
       Resolution Process

12.    FSEOG Institution Level Funding Can Be Improved                            Sep-97




                                                      Systems


NO. TITLE                                                                        ISSUED

 1.    Addition of Year 2000 Issue to the Audit Workplan                          Apr-97

 2.    Independent Quality Control Units on Direct Loan Servicing Contracts       Apr-97

 3.    Project EASI Requirements Documentation                                    Jun-97

 4.    Status of the Department’s Independent Computer System Security Reviews    Jun-97

 5.    Direct Loan Servicing System Contracts                                     Aug-97




                                                 State and Local



NO. TITLE                                                                        ISSUED
 1.    Letter to the Subcommittee on Employment and Training, Committee           Sep-97
       on Labor and Human Relations Regarding our Work in Authorizing the
       Vocational Rehabilitation Act of 1973




                                                           36
                                                              Abstract 5

                                     LEGISLATIVE PROPOSALS FOR
                                      REAUTHORIZATION OF THE
                                       HIGHER EDUCATION ACT



'    Institutional Eligibility and Enforcement
The mechanisms for ensuring that only high-quality and well-administered schools participate in the SFA programs continue
to need improvement in order to ensure the integrity of the programs. We recommend that Congress:
0      legislate performance standards for vocational schools;
0      eliminate Pell eligibility for high-default schools;
0      restrict distance learning to academic degree programs;
0      require schools to post a surety when appealing loss of eligibility due to high-default rates;
0      legislate separate statutory requirements for vocational trade schools; and
0      eliminate the 25-year-old requirement for Pell advance funding.


'      Student Eligibility
To ensure that students are receiving appropriate amounts of federal aid, we recommend that Congress:
0      require verification of applicants’ income data with IRS; and
0      limit professional judgment by financial aid administrators.


'      Loan Programs
Effective management of the loan programs is dependent upon accurate and timely data. Therefore, we recommend that
Congress:
0      require annual reconciliation of NSLDS data;
0      change the definition of loans in repayment; and
0      standardize accounting and reporting for guaranty agency reserve funds.

To ensure that students are receiving their refunds, we recommend that Congress:
0      require certification of refund liabilities by vocational trade schools; and
0      require discharge of loans to the extent of unpaid refunds for student victims.




                                                                 37
           LEGISLATIVE PROPOSALS FOR REAUTHORIZATION OF THE HIGHER EDUCATION ACT


To protect the integrity and reduce the cost of the Consolidation and PLUS loan programs, we recommend that Congress:
0      prohibit the consolidation of defaulted loans; and
0      require the determination of the ability to repay PLUS loans and require joint parent/ student liability.

'      Law Enforcement
Because of the length of time it takes to prepare complex court cases against institutions that defraud the SFA programs, we
recommend that Congress:
0      require that SFA records be retained for five years and that certain original records be re-tained for the duration of the
       required retention period; and
0      apply the extended statute of limitation (ten years) for financial institution fraud to the Federal Direct Loan Program.




                                                              38
                            RECOMMENDATIONS DESCRIBED IN PREVIOUS SEMIANNUAL REPORTS
                              ON WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED

Section 5(a)(3) of the Inspector General Act requires a listing of each report resolved before the commencement of the reporting period for which management
has not completed corrective action. The reports listed below are OIG internal and nationwide audit reports and management improvement reports.
                                                                                                                                            TOTAL         SEMIANNUAL
REPORT                                                                                                                       DATE         MONETARY           REPORT
NUMBER      AUDITEE/TITLE                                                                                                  RESOLVED        FINDINGS         NO. PAGE


OFFICE OF ELEMENTARY AND SECONDARY EDUCATION

11-20202    CHANGES TO IMPACT AID PROGRAMS' SITE REVIEW PROCESS SHOULD                                                       09/30/94        4,382,000         26   85
             IMPROVE EFFICIENCY AND ASSURE BETTER USE OF PROGRAM FUNDS


OFFICE OF POSTSECONDARY EDUCATION

11-00010    OFFICE OF STUDENT FINANCIAL ASSISTANCE DID NOT ASSURE THAT ALL INSTITUTIONS                                      09/30/93       33,800,000         24   63
             SUBMITTED AUDIT REPORTS OR THAT IT RECOVERED ALL MISSPENT FUNDS
11-90040    THE INSTITUTIONAL ELIGIBILITY PROCESS DOES NOT PROVIDE ADEQUATE ASSURANCE                                        09/30/93        482,000           22   6
             THAT ONLY ELIGIBLE SCHOOLS PARTICIPATE IN THE TITLE IV PROGRAMS
92-05**     ED NEEDS TO STRENGTHEN STUDENT LOAN CURE PROCEDURES                                                              09/30/93       154,000,000        24   12
92-10**     STRICTER STANDARDS NEEDED FOR GRANTING OF FORBEARANCES                                                           09/30/93            *             25    3
92-13**     ED NEEDS TO CHANGE THE LEGISLATIVE DEFINITION OF LOANS IN REPAYMENT                                              01/31/94            *             25    5
05-20075    EFFECTIVENESS OF THE REGIONAL INSTITUTIONAL REVIEW BRANCHES' MONITORING OF                                       08/31/94            *             28   19
             INSTITUTIONS PARTICIPATING IN THE STUDENT FINANCIAL ASSISTANCE PROGRAMS
17-30302    FINANCIAL AUDIT: FEDERAL FAMILY EDUCATION LOAN PROGRAM'S FINANCIAL STATEMENTS                                    10/31/94            *             29   16
             FOR FISCAL YEARS 1993 AND 1992
11-30001    INCONSISTENT INSTITUTIONAL PELL GRANT REPORTING RESULTS IN SIGNIFICANT                                           07/31/95            *             29   15
             EXPENDITURE DISCREPANCIES
04-40100    HELPING TO ASSURE EQUALIZED EDUCATIONAL OPPORTUNITIES WITH HEA, TITLE III                                        08/31/95            *             31   11
             INSTITUTIONAL AID FUNDS - GLOBAL PERFORMANCE MEASURES NEEDED
17-30305    ANNUAL INTEREST GRANTS: IMPROVING THE PROCESS FOR PAYING THE REMAINING                                           02/29/96        5,025,272         31   14
             GRANTS
11-40001    FOLLOW-UP REVIEW ON SELECTED GATEKEEPING OPERATIONS                                                              02/29/96            *             31   13
05-40005    ED NEEDS TO CONSIDER IMPLEMENTING CHANGES FOR MONITORING                                                         03/31/96            *             32   10
             LENDERS AND SERVICERS
05-50008    EFFECTIVENESS AND EFFICIENCY OF DEBT COLLECTION SERVICE - AREAS RELATED                                          04/30/96            *             32   12
             TO INTERNAL OPERATIONS
04-38000    LESSONS LEARNED FROM RTC’S HANDLING OF FEDERAL FAMILY EDUCATION LOANS ...                                        08/31/96            *             32   9
04-60001    PROCESS ENHANCEMENTS IN THE HEA, TITLE III, INSTITUTIONAL AID PROGRAM                                            08/31/96            *             32   9
             WOULD INCREASE PROGRAM EFFICIENCY, DESPITE LIMITED RESOURCES
06-30004    MANAGING FOR RESULTS: REVIEW OF PERFORMANCE-BASED SYSTEMS AT                                                     08/31/96            *             31   7
             SELECTED ACCREDITING AGENCIES
07-48051    CLOSED SCHOOLS: $2.4 BILLION UNAUDITED                                                                           06/30/96            *             31   13
06-50010    THE ELECTRONIC DATA EXCHANGE: A SECURITY REVIEW IS NEEDED                                                        12/31/96            *             33   12
03-60001    REVIEW OF THE MANAGEMENT SYSTEMS AND STRUCTURE OF THE U.S. DEPARTMENT OF EDUCATION,                              03/31/97            *             33   29
             OFFICE OF POSTSECONDARY EDUCATION, OFFICE OS STUDENT FINANCIAL ASSISTANCE PROGRAMS
09-38058    THE DEPARTMENT SHOULD CONTINUE ITS EFFORTS TO IMPROVE THE ACCURACY OF ITS STUDENT LOAN DATABASE                  03/31/97            *             33   13
                                                                                                                          TOTAL     SEMIANNUAL
REPORT                                                                                                       DATE      MONETARY      REPORT
NUMBER        AUDITEE/TITLE                                                                                RESOLVED     FINDINGS     NO. PAGE

OFFICE OF THE CHIEF FINANCIAL OFFICER

11-00333      GREATER EMPHASIS NEEDED TO DEOBLIGATE UNEXPENDED CONTRACT                                     03/31/94    7,500,000   26    17
               FUNDS AND CLOSE OUT CONTRACTS ON TIME
17-40302      FINANCIAL STATEMENT AUDIT: U.S. DEPARTMENT OF EDUCATION                                       08/31/95        *       31    12
               FEDERAL FAMILY EDUCATION LOAN PROGRAM FOR THE YEARS
               ENDED SEPTEMBER 30, 1994 AND 1993
17-48320      FINANCIAL STATEMENT AUDIT OF THE U.S. DEPARTMENT OF EDUCATION                                 09/30/95        *       30    20
               WILLIAM D. FORD FEDERAL DIRECT LOAN PROGRAM
17-40303      THE REPORT OF INDEPENDENT ACCOUNTANTS ON THE U.S. DEPARTMENT OF EDUCATION FISCAL YEAR 1995   03/31/97         *       33    14
               DEPARTMENT-WIDE FINANCIAL STATEMENTS




* Non-monetary findings only
** Management improvement report
            ED/OIG REPORTS ON EDUCATION DEPARTMENT PROGRAMS AND ACTIVITIES
                                                         (April 1, 1997 — September 30, 1997)


Section 5(a)(6) of the Inspector General Act requires a listing of each report completed by OIG during the reporting period. A total of 28 reports
were completed by ED/OIG auditors. These reports are listed below.
                                                                                                                    QUESTIONED
                                                                                                                        COSTS
                                                                                                                      (excluding        UNSUPPORTED   BETTER USE
ACN            AUDITEE/REPORT TITLE                                                        STATE     ISSUED          unsupported)          COSTS       OF FUNDS

OFFICE OF POSTSECONDARY EDUCATION

01-58052       EDUCATION LOAN SERVICES, INC. FAILED TO CALCULATE INTEREST                    MA       SEP-97           1,014,000
                 REBATES OWED TO THE SECRETARY ESTIMATED AT $1,014,000
01-70002       UNIVERSITY OF MASSACHUSETTS - AMHERST                                         MA       SEP-97                   *
04-70002       AUDIT OF THE WILLIAM D. FORD DIRECT LOAN PROGRAM                              FL       MAY-97                   *
                 ADMINISTERED BY KEISER COLLEGE OF TECHNOLOGY
05-60010       CONSUMER ELECTRONICS TRAINING CENTER, CHICAGO ILLINOIS                         IL       APR-97             186,720
                 AUDIT OF THE ADMINISTRATION OF STUDENT FINANCIAL
                 ASSISTANCE PROGRAMS AUDIT CONTROL
05-70005       ACADEMY OF COURT REPORTING, CLEVELAND, OHIO                                    OH       JUL-97                      *
                 AUDIT OF THE ADMINISTRATION OF THE WILLIAM D. FORD
                 FEDERAL DIRECT LOAN PROGRAM
05-70006       INTERSTATE BUSINESS COLLEGE FARGO, NORTH DAKOTA AUDIT OF                       ND       JUL-97                      *
                 THE ADMINISTRATION OF THE WILLIAM D. FORD FEDERAL DIRECT
                 LOAN PROGRAM
06-60004       FINANCIAL AID ADMINISTRATORS USE OF PROFESSIONAL                               DC       JUL-97                      *
                JUDGEMENT
06-60006       ELIMINATING ADVANCE FUNDING WOULD ENHANCE THE                                  DC      AUG-97                       *
                 INTEGRITY OF THE FEDERAL PELL GRANT PROGRAMS
06-70003       PROFESSIONAL JUDGEMENT AT ST. LOUIS UNIVERSITY                                 MO       JUL-97           2,599,709
07-70003       TECHNICAL TRADES INSTITUTE                                                     CO      AUG-97               13,463
09-60007       AUDIT OF THE DIRECT LOAN PROGRAM ADMINISTERED BY                               CA      APR-97                    *
                 UNIVERSITY OF CALIFORNIA, RIVERSIDE
09-70007       AUDIT OF THE DIRECT LOAN PROGRAM ADMINISTERED BY                               AZ      AUG-97                       *
                 THE UNIVERSITY OF ADVANCING COMPUTER TECHNOLOGY
                  (FORMERLY CAD INSTITUTE)


OFFICE OF ELEMENTARY AND SECONDARY EDUCATION

04-70001       STATE AND LOCAL EDUCATION AGENCIES NEED MORE TECHNICAL                         DC      AUG-97                       *
                ASSISTANCE TO TAKE FULL ADVANTAGE OF FLEXIBILITY PROVISIONS
               OF TITLE XIV OF THE IMPROVING AMERICA’S SCHOOLS ACT
                                                                                                QUESTIONED
                                                                                                    COSTS
                                                                                                  (excluding    UNSUPPORTED    BETTER USE
ACN                   AUDITEE/REPORT TITLE                                   STATE    ISSUED     unsupported)      COSTS        OF FUNDS


OFFICE OF SPECIAL EDUCATION AND REHABILITATIVE SERVICES

09-53006         A NEW FORMULA IS NEEDED TO EQUITABLY ALLOCATE VOCATIONAL      WA      JUL-97              *
                  REHABILITATION PROGRAM FUNDS TO STATES
09-60004         FOUR FACTORS MAY HAVE CONTRIBUTED TO THE HIGH                 CA      SEP-97              *
                   EMPLOYMENT OUTCOME RATE AT THE TEXAS
                   REHABILITATION COMMISSION
11-50201         OFFICE OF SPECIAL EDUCATION AND REHABILITATIVE SERVICES       DC     AUG-97               *
                  SECRETARIAL REVIEW PROCESS IN NEED OF CHANGE


OFFICE OF BILINGUAL EDUCATION AND MINORITY LANGUAGE AFFAIRS

04-60152         REVIEW OF MONITORING CONTROLS USED TO ENSURE                  DC     JUN-97               *
                  FULFILLMENT OF TITLE VII BILINGUAL EDUCATION GRANT
                   PROGRAM OBJECTIVES


OFFICE OF CHIEF FINANCIAL OFFICER

01-60008         THE MASSACHUSETTS CORPORATION FOR EDUCATIONAL                 MA      SEP-97                        36,138        991,552
                  TELECOMMUNICATIONS MUST BE A RESTRICTED INDIRECT
                  COST RATE FOR CHARGING INDIRECT COSTS TO
                  FEDERAL GRANTS

03-50200         STAR SCHOOLS PROGRAM GRANTEE’S PROJECT MANAGEMENT             VA      SEP-97        316,457       2,077,767
                  WAS SERIOUSLY DEFICIENT, AN AUDIT OF THE STAR SCHOOLS
                  AS ADMINISTERED BY THE CENTRAL EDUCATIONAL
                  TELECOMMUNICATIONS NETWORK


OFFICE OF EDUCATIONAL RESEARCH AND IMPROVEMENT

17-60002         U.S. DEPARTMENT OF EDUCATION RECOMMENDATIONS TO                 DC   AUG-97                               *
                  IMPROVE MANAGEMENT CONTROLS AND OPERATIONS RESULTING
                  FROM MATTERS NOTED DURING OUR FISCAL YEAR 1996 FINANCIAL
                 STATEMENT AUDIT




* Non-monetary findings only
                             INSPECTOR GENERAL ISSUED REPORTS
                                  WITH QUESTIONED COSTS1




                                                  NUMBER            QUESTIONED            UNSUPPORTED 2

A.       For which no management
         decision has been made by
         the commencement of the
         reporting period (as adjusted)                 48         $ 322,535,687             $ 29,881,387

B.       Which were issued during
         the reporting period                            6              6,244,254                2,113,905

         Subtotals (A + B)                              54         $ 328,779,941             $ 31,995,292

C.       For which a management
         decision was made during
         the reporting period                           19         $ 129,441,052             $     293,815

         (i) Dollar value of
             disallowed costs                                      $ 128,527,626             $      27,795

         (ii) Dollar value of
              costs not disallowed                                 $      913,426            $     266,020

D.       For which no management
         decision has been made by
         the end of the reporting
         period                                         35         $ 199,338,889             $ 31,701,477

E.       For which no management
         decision was made within
         six months of issuance                         26         $ 161,951,917             $ 25,822,274




     1
         None of the audits reported in this table was performed by the Defense Contract Audit Agency.
     2
         Included in questioned costs.
                     I NSPECTOR G ENERAL I SSUED R EPORTS
                         WITH R ECOMMENDATIONS FOR
                            B ETTER U SE OF F UNDS 1



                                                           N UMBER              D OLLAR V ALUE

A. For which no management
   decision has been made by
   the commencement of the
   reporting period (as adjusted)                                7                    $ 144,205,000

B. Which were issued during
   the reporting period                                          2                        32,793,546

           Subtotals (A + B)                                     9                    $ 176,998,546

C. For which a management
   decision was made during
   the reporting period                                          4                    $ 153,891,994

   (i)     Dollar value of recommendations
           that were agreed to by
           management                                                                 $ 116,709,884

   (ii)    Dollar value of recommendations
           that were not agreed to
           by management                                                                $ 37,182,110

D. For which no management
   decision has been made by
   the end of the reporting
   period                                                        5                      $ 23,106,552

E. For which no management
   decision was made within
   six months of issuance                                        4                      $ 22,115,000




   1
       None of the audits reported in this table was performed by the Defense Contract Audit Agency.
                              UNRESOLVED REPORTS ISSUED PRIOR TO APRIL 1, 1997

Section 5(a)(10) of the Inspector General Act requires a listing of each report issued before the commencement of the reporting period for which no
management decision has been made by the end of the reporting period.
                                                                                                            TOTAL                   PROJECTED         SEMIANNUAL
REPORT                                                                                      DATE         MONETARY          REASONS MANAGEMENT         REPORT PAGE
NUMBER AUDITEE/TITLE                                                                ST     ISSUED         FINDINGS         OVERDUE   DECISION          NO.   NO.

03-14078   SOJOURNER-DOUGLAS COLLEGE                                                MD     07/05/91            114,206         01          12/31/97   **
03-14079   SOJOURNER-DOUGLAS COLLEGE                                                MD     07/05/91            243,300         01          12/31/97   **
09-10007   WESTERN TRUCK SCHOOL                                                     CA     09/10/92          8,834,503         01          12/31/97   25     78
07-23545   MISSOURI STATEWIDE                                                       MO     04/01/93          1,048,768         01            ***      **
05-20007   AMERICAN CAREER ACADEMY                                                  MI     05/27/93          2,003,658         01          12/31/97   27     17
09-10005   CALIFORNIA STUDENT AID COMMISSION                                        CA     09/10/93         41,100,000         01          12/31/97   27     17
03-20205   INDEPENDENCE CENTER OF NORTHERN VIRGINIA                                 VA     09/17/93            173,742         04          12/31/97   **
06-10007   AVALON VOCATIONAL TECHNICAL INSTITUTE                                    TX     09/17/93          8,795,000         01          12/31/97   27     17
09-33114   STATE OF CALIFORNIA                                                      CA     12/24/93          4,191,032         01          12/31/97   28     18
07-33123   MISSOURI STATEWIDE                                                       MO     03/07/94            187,530        ***            ***      **
03-33154   COMMONWEALTH OF PENNSYLVANIA                                             PA     07/05/94         31,656,831         05          03/31/98
05-30010   NORTHSTAR GUARANTEE INCORPORATED                                         MN     08/16/94            619,287         01          12/31/97   29     31
04-43134   FLORIDA STATEWIDE                                                        FL     12/05/94            615,996         05            ***
01-46037   COMMONWEALTH OF MASSACHUSETTS                                            MA     02/01/95          2,173,536      01,03,04       03/31/98   30    16
02-56113   VIRGIN ISLANDS DEPARTMENT OF EDUCATION                                   VI     02/17/95         10,375,000         05            ***      30    17
05-40007   REPORT ON THE TRANSITIONAL GUARANTY AGENCY'S                             MN     06/02/95                  *         01            ***      **
            ROLE IN GUARANTY AGENCY TRANSITION
03-47090   COMMONWEALTH OF PENNSYLVANIA                                             PA     07/20/95         50,689,820         05          03/31/98   **
04-53670   FLORIDA STATEWIDE                                                        FL     10/04/95          2,855,402         05            ***
05-60003   CANNELLA SCHOOL OF HAIR DESIGN, CHICAGO, ILLINOIS, AUDIT OF              IL     08/16/96          4,408,620         01          12/31/97   33    13
            ADMINISTRATION OF STUDENT FINANCIAL ASSISTANCE PROGRAMS
04-50201    THE TENNESSEE DIVISION OF REHABILITATION SERVICES SHOULD                TN     09/27/96           367,131         ***            ***      33     8
            IMPROVE ITS ADMINISTRATION OF ESTABLISHMENT PROJECTS
05-40001   CLOSE-OUT AUDIT OF THE CHICAGO INSTITUTE OF TECHNOLOGY                   IL     10/08/96         10,079,439         01          12/31/97   34    11
01-50091   ROXBURY COMMUNITY COLLEGE DISBURSED $2.2 MILLION TO STUDENTS             MA     10/29/96          2,253,564         01          12/31/97   34    10
            ENROLLED IN AN INELIGIBLE ENGLISH AS A SECOND LANGUAGE
            PROGRAMS
03-60006   REVIEW OF THE COOPERATIVE AGREEMENT FOR THE NATIONAL                     PA     01/28/97                  *        ***            ***      34    19
            CENTER FOR ADULT LITERACY AWARDED TO THE UNIVERSITY
            OF PENNSYLVANIA FOR THE PERIOD NOVEMBER 1, 1992
            THROUGH MARCH 31, 1996
04-60147   REVIEW OF SELECTED ASPECTS OF THE KENTUCKY HIGHER EDUCATION              KY     02/18/97          1,263,251        ***            ***      34     9
            ASSISTANCE AUTHORITY’S ADMINISTRATION OF THE FEDERAL
            FAMILY EDUCATION LOAN PROGRAM
06-50001   REVIEW OF ACCREDITING AGENCIES’MONITORING OF MEMBER                      DC     02/18/97                  *         01          12/31/97   34     9
            INSTITUTIONS
06-50005   RESULT OF CONTRACT CLOSE-OUT AUDIT, ARKANSAS DEPARTMENT                  AR     02/26/97            17,301          04            ***      34    37
            OF EDUCATION
NOTES
* Non-monetary findings only
** Not individually written up
*** Information not provided by POC


REASON CODES FOR REPORTS OVER SIX MONTHS OLD
01 - Administrative delays
02 - Delay in receiving auditee comments or additional information from auditee
03 - Delay in receiving additional information from non-Federal auditor.
04 - Lack of staff
05 - Cooperative Audit Resolution and Oversight Initiative (CAROI) pilot State
                                                         STATISTICAL SUMMARY
                                                    October 1, 1996 — September 30, 1997




                                                                                                                                Six-Month                    Fiscal
                                                                                                                                    Period                    Year
                                                                                                                                   Ending                  Ending
                                                                                                                                   9/30/97                 9/30/97

OIG AUDIT REPORTS ISSUED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20                                           48
– Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $           4,130,349         $    17,074,024
– Unsupported Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $            2,113,905         $     8,403,106
– Recommendations for Better Use of Funds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $                         32,793,546         $   141,793,546


OIG AUDIT REPORTS RESOLVED BY PROGRAM MANAGERS . . . . . . . . . . . . . . . . . . . . 32                                                                       54
– Questioned Costs Sustained. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $ 122,315,999                      $   210,972,471
– Unsupported Costs Sustained . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               0                      $         9,200
– Additional Disallowances Identified by Program Managers . . . . . . . . . . . . . . . . . $                       1,215,818                      $     1,215,818
– Management Commitment to Better Use of Funds . . . . . . . . . . . . . . . . . . . . . . . . $ 116,709,884                                       $   116,709,884


OIG-I SSUED NON-FEDERAL AUDIT REPORTS
RESOLVED BY PROGRAM MANAGERS . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                      12                  26
– Questioned Costs Sustained. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $                6,183,832         $     6,335,461
– Unsupported Costs Sustained . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $                     27,795         $        82,622
– Additional Disallowances Identified by Program Managers . . . . . . . . . . . . . . . . . $                                   27,378,037         $    27,408,578


INVESTIGATIVE CASE ACTIVITY
– Cases Opened . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .163                    246
– Cases Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .73                   147
– Cases Active at End of Period . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 399                          399
– Cases Referred for Prosecution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39                           81
  – Accepted . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .301                 66
  – Declined . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9                15




         1
             Includes 3 civil acceptances.
                                                        STATISTICAL SUMMARY
                                                    October 1, 1996 — September 30, 1997




                                                                                                                            Six-Month                  Fiscal
                                                                                                                                Period                  Year
                                                                                                                               Ending                Ending
                                                                                                                               9/30/97               9/30/97


INVESTIGATION RESULTS
– Indictments/Informations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 262                  71
– Convictions/Pleas . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .273              70
– Fines Ordered . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $         554,300      $     565,100
– Restitutions Ordered . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $ 6,443,8194              $   7,712,309
– Restitution Payments Collected 5 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $                  468,588      $   2,251,000
– Civil Settlements (number) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       1036
– Civil Settlements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $ 5,111,9357             $   5,278,522
– Civil Judgments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $             57,670     $      57,670
– Recoveries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $          22,085     $      22,085
– Forfeitures/Seizures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $              19,700     $     224,700

DEBARMENT/SUSPENSION ACTIVITIES
– OIG Requests for Departmental Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26                           41
– Individuals/Entities Debarred/Suspended . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16                            22




         2
             Includes 5 actions that were not reported in our last Semiannual Report.
         3
             Includes 4 actions that were not reported in our last Semiannual Report.
         4
             Includes $18,511 not reported in our previous Semiannual Report.
         5
             Dollars collected by Department of Justice.
         6
             First time category reported.
         7
             Includes $135,000 not reported in our last Semiannual Report.
                   GLOSSARY OF ABBREVIATIONS



ACN           audit control number

ATB           ability-to-benefit

CAROI         Cooperative Audit Resolution and Oversight Initiative

CFO           Chief Financial Officer

DOJ           Department of Justice

ED            U.S. Department of Education

EDCAPS        Education Department Central Automated Processing System

ESEA          Elementary and Secondary Education Act

FAFSA         Free Application for Student Aid

FBI      Federal Bureau of Investigation

FFELP         Federal Family Education Loan program

FY            fiscal year

GMRA          Government Management Reform Act

GPRA          Government Performance and Results Act

IDEA          Individuals with Disabilities Education Act

OIG           Office of Inspector General

OMB           Office of Management and Budget
              GLOSSARY OF ABBREVIATIONS
                             (continued)




OPE   Office of Postsecondary Education

SFA   student financial assistance/student aid

ST    state

VA    Department of Veterans Affairs
